<html>
<title> - OVERSIGHT OF THE FEDERAL COMMUNICATIONS COMMISSION</title>
<body><pre>[House Hearing, 114 Congress]
[From the U.S. Government Publishing Office]




 
           OVERSIGHT OF THE FEDERAL COMMUNICATIONS COMMISSION

=======================================================================

                                HEARING

                               BEFORE THE

             SUBCOMMITTEE ON COMMUNICATIONS AND TECHNOLOGY

                                 OF THE

                    COMMITTEE ON ENERGY AND COMMERCE
                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED FOURTEENTH CONGRESS

                             SECOND SESSION

                               __________

                             JULY 12, 2016

                               __________

                           Serial No. 114-161
                           
                           
                           
                           
                           
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]                          



      Printed for the use of the Committee on Energy and Commerce

                        energycommerce.house.gov
                        
                        
                        
                        
                        
                        
                              ________

                U.S. GOVERNMENT PUBLISHING OFFICE
                   
 22-951 PDF               WASHINGTON : 2017       
____________________________________________________________________
 For sale by the Superintendent of Documents, U.S. Government Publishing Office,
Internet:bookstore.gpo.gov. Phone:toll free (866)512-1800;DC area (202)512-1800
  Fax:(202) 512-2104 Mail:Stop IDCC,Washington,DC 20402-001   
                       
                        
                        


                    COMMITTEE ON ENERGY AND COMMERCE

                          FRED UPTON, Michigan
                                 Chairman

JOE BARTON, Texas                    FRANK PALLONE, Jr., New Jersey
  Chairman Emeritus                    Ranking Member
ED WHITFIELD, Kentucky               BOBBY L. RUSH, Illinois
JOHN SHIMKUS, Illinois               ANNA G. ESHOO, California
JOSEPH R. PITTS, Pennsylvania        ELIOT L. ENGEL, New York
GREG WALDEN, Oregon                  GENE GREEN, Texas
TIM MURPHY, Pennsylvania             DIANA DeGETTE, Colorado
MICHAEL C. BURGESS, Texas            LOIS CAPPS, California
MARSHA BLACKBURN, Tennessee          MICHAEL F. DOYLE, Pennsylvania
  Vice Chairman                      JANICE D. SCHAKOWSKY, Illinois
STEVE SCALISE, Louisiana             G.K. BUTTERFIELD, North Carolina
ROBERT E. LATTA, Ohio                DORIS O. MATSUI, California
CATHY McMORRIS RODGERS, Washington   KATHY CASTOR, Florida
GREGG HARPER, Mississippi            JOHN P. SARBANES, Maryland
LEONARD LANCE, New Jersey            JERRY McNERNEY, California
BRETT GUTHRIE, Kentucky              PETER WELCH, Vermont
PETE OLSON, Texas                    BEN RAY LUJAN, New Mexico
DAVID B. McKINLEY, West Virginia     PAUL TONKO, New York
MIKE POMPEO, Kansas                  JOHN A. YARMUTH, Kentucky
ADAM KINZINGER, Illinois             YVETTE D. CLARKE, New York
H. MORGAN GRIFFITH, Virginia         DAVID LOEBSACK, Iowa
GUS M. BILIRAKIS, Florida            KURT SCHRADER, Oregon
BILL JOHNSON, Ohio                   JOSEPH P. KENNEDY, III, 
BILLY LONG, Missouri                 Massachusetts
RENEE L. ELLMERS, North Carolina     TONY CARDENAS, California7
LARRY BUCSHON, Indiana
BILL FLORES, Texas
SUSAN W. BROOKS, Indiana
MARKWAYNE MULLIN, Oklahoma
RICHARD HUDSON, North Carolina
CHRIS COLLINS, New York
KEVIN CRAMER, North Dakota

             Subcommittee on Communications and Technology

                          GREG WALDEN, Oregon
                                 Chairman
ROBERT E. LATTA, Ohio                ANNA G. ESHOO, California
  Vice Chairman                        Ranking Member
JOHN SHIMKUS, Illinois               MICHAEL F. DOYLE, Pennsylvania
MARSHA BLACKBURN, Tennessee          PETER WELCH, Vermont
STEVE SCALISE, Louisiana             JOHN A. YARMUTH, Kentucky
LEONARD LANCE, New Jersey            YVETTE D. CLARKE, New York
BRETT GUTHRIE, Kentucky              DAVID LOEBSACK, Iowa
PETE OLSON, Texas                    BOBBY L. RUSH, Illinois
MIKE POMPEO, Kansas                  DIANA DeGETTE, Colorado
ADAM KINZINGER, Illinois             G.K. BUTTERFIELD, North Carolina
GUS M. BILIRAKIS, Florida            DORIS O. MATSUI, California
BILL JOHNSON, Missouri               JERRY McNERNEY, California
BILLY LONG, Missouri                 BEN RAY LUJAN, New Mexico
RENEE L. ELLMERS, North Carolina     FRANK PALLONE, Jr., New Jersey (ex 
CHRIS COLLINS, New York                  officio)
KEVIN CRAMER, North Dakota
JOE BARTON, Texas
FRED UPTON, Michigan (ex officio)

                                  (ii)
                                  
                                  
                                  
                             C O N T E N T S

                              ----------                              
                                                                   Page
Hon. Greg Walden, a Representative in Congress from the State of 
  Oregon, opening statement......................................     1
Hon. Anna G. Eshoo, a Representative in Congress from the State 
  of California, opening statement...............................     3
Hon. Fred Upton, a Representative in Congress from the State of 
  Michigan, opening statement....................................     5
    Prepared statement...........................................     6
Hon. Frank Pallone, Jr., a Representative in Congress from the 
  State of New Jersey, opening statement.........................     7
    Prepared statement...........................................     8

                               Witnesses

Tom Wheeler, Chairman, Federal Communications Commission.........     9
    Prepared statement...........................................    12
    Answers to submitted questions \1\...........................   107
Mignon L. Clyburn, Commissioner, Federal Communications 
  Commission.....................................................    19
    Prepared statement...........................................    21
    Answers to submitted questions...............................   108
Jessica Rosenworcel, Commissioner, Federal Communications 
  Commission.....................................................    26
    Prepared statement...........................................    28
    Answers to submitted questions...............................   114
Ajit Pai, Commissioner, Federal Communications Commission........    32
    Prepared statement...........................................    34
    Answers to submitted questions...............................   122
Michael O'Rielly, Commissioner, Federal Communications Commission    39
    Prepared statement...........................................    41
    Answers to submitted questions...............................   129

                           Submitted Material

Letter of July 11, 2016, from Laurence H. Tribe, et al., to Hon. 
  John Thune, et al., on behalf of the International Center for 
  Law & Economics, submitted by Mr. Walden.......................    83
Letter of July 12, 2016, from Ms. Clarke, Mr. Rush, and Mr. 
  Butterfield to Thomas E. Wheeler, Chairman, Federal 
  Communications Commission, submitted by Ms. Clarke.............    87
Statement of Global Automakers, et al., July 8, 2016, submitted 
  by Mr. Upton...................................................    89
Report of May 9, 2016, ``Understanding and Appreciating Zero-
  Rating: The Use and Impact of Free Data in the Mobile Broadband 
  Sector,'' Multicultural Media, Telecom and Internet Council, 
  submitted by Mr. Butterfield...................................    90
Letters of December 1, 2015, through June 15, 2016, from Members 
  of Congress and Senators to Tom Wheeler, Chairman, Federal 
  Communications Commission, \2\ submitted by Mr. Butterfield

----------
\1\ Mr. Wheeler's responses have been retained in committee files and 
also are available at  http://docs.house.gov/Committee/Calendar/
ByEvent.aspx?EventID=105179.
\2\ The information has been retained in committee files and also is 
available at  http://docs.house.gov/meetings/IF/IF16/20160712/105179/
HHRG-114-IF16-20160712-SD005.pdf.


           OVERSIGHT OF THE FEDERAL COMMUNICATIONS COMMISSION

                              ----------                              


                         TUESDAY, JULY 12, 2016

                  House of Representatives,
     Subcommittee on Communications and Technology,
                          Committee on Energy and Commerce,
                                                    Washington, DC.
    The subcommittee met, pursuant to call, at 10:18 a.m., in 
room 2123 Rayburn House Office Building, Hon. Greg Walden 
(chairman of the subcommittee) presiding.
    Members present: Representatives Walden, Latta, Barton, 
Shimkus, Blackburn, Scalise, Lance, Guthrie, Olson, Pompeo, 
Kinzinger, Bilirakis, Johnson, Long, Collins, Cramer, Upton (ex 
officio), Eshoo, Doyle, Welch, Yarmuth, Clarke, Loebsack, Rush, 
DeGette, Butterfield, Matsui, McNerney, Lujan, and Pallone (ex 
officio).
    Staff present: Gary Andres, Staff Director; Elena Brennan, 
Staff Assistant; Rebecca Card, Assistant Press Secretary; Gene 
Fullano, Detailee, Communications and Technology; Theresa 
Gambo, Human Resources and Office Administrator; Jay Gulshen, 
Staff Assistant; Kelsey Guyselman, Counsel, Communications and 
Technology; Grace Koh, Counsel, Communications and Technology; 
David Redl, Chief Counsel, Communications and Technology; 
Charlotte Savercool, Professional Staff Member, Communications 
and Technology; Dan Schneider, Press Secretary; Gregory Watson, 
Legislative Clerk, Communications and Technology; Jeff Carroll, 
Democratic Staff Director; David Goldman, Democratic Chief 
Counsel, Communications and Technology; Jerry Leverich, 
Democratic Counsel; Lori Maarbjerg, Democratic FCC Detailee; 
Dan Miller, Democratic Staff Assistant; Matt Schumacher, 
Democratic Press Assistant; Ryan Skukowski, Democratic Senior 
Policy Analyst; Andrew Souvall, Democratic Director of 
Communications, Member Services, and Outreach.

  OPENING STATEMENT OF HON. GREG WALDEN, A REPRESENTATIVE IN 
               CONGRESS FROM THE STATE OF OREGON

    Mr. Walden. I call to order the Subcommittee on 
Communications and Technology. I want to thank the Chairman and 
the Commissioners for being here once again today. I think this 
is our sixth oversight hearing, probably more to come before 
the end of the year, just for scheduling purposes for all of 
you. Obviously, it is our important responsibility to continue 
to be in active dialogue with the Commission and its Chairman 
and those that we oversee. It is both our responsibility, our 
obligation, and a good opportunity--I was going to say ``and a 
joy,'' Anna says ``fun''--to continue this. It is a very 
important segment of our economy, as you know, with lots of 
issues at stake.
    I want to just talk about several things that are on my 
mind this morning that I know the Commission is actively 
engaged in. One, as you know, Mr. Chairman, we have four, well, 
I don't know, since 2010 or so, complained about no update, 
meaningful update in the ownership rules. I am told that the 
Commission majority has now voted on that and I am also told 
that we probably won't see many changes when it comes to the 
ownership rules and regulations in the NPRM. And yet, the 
marketplace to me has changed dramatically since 2004. Further, 
the Congress has sent very specific views to the Commission 
through the legislative process that I hope have not been 
ignored when it comes to JSAs and other issues. That would be 
very disappointing.
    Obviously, I know several of you are concerned about the 
future of 911 as are we. And we are also concerned about States 
identifying in your own reports that levying money from 
consumers for 911 purposes and then turnaround and spend it in 
non-911 related areas. And so I would like to get your views on 
that because we are not a blank check and neither are you the 
consumers. So ownership rules, 911, obviously pretty important 
when we look at things.
    I would love to get an update from you on the incentive 
auction to the extent you can discuss that. Obviously, there 
are lots of issues related to the number of participating 
stations, the amount of spectrum available, and whether that 
meets up with capital. We all want to see a successful auction 
and I know you do too, and you and your teams have worked very, 
very hard in a very complicated part of the area.
    Merger authority continues to be an issue. It has been 
brought to my attention by some that continue to be 
requirements put on either sales or mergers that my opinion I 
get right up on the line, not of extortion necessarily, but 
certainly pretty heavy handed. I think of one involving a 
broadcast sale where apparently there was a pending complaint 
about indecency and the people involved in the sale had to 
waive their rights of appeal, couldn't put money in escrow in 
order to get approval and I would like to know if that is true 
or not and why the Commission might have gone that way. Also, 
the over-billed requirements apparently in the Charter- Time 
Warner merger, I would be curious to know why that was 
necessary going forward.
    Obviously, we remain concerned about communication among 
the Commissioners and the Chairman and vice versa and how that 
is going. We would love to get your update on your views of 
that from each of you and the sort of process reforms that we 
have talked about and in many cases in a bipartisan way 
legislated here at least through the House and kind of what you 
are seeing in terms of where the Commission is at from each of 
your perspectives.
    I know having been both in the minority and the majority, 
it is a lot easier in the majority, but that is also where you 
have to maintain, it is your responsibility to maintain an open 
process with the minority to the extent you may have 
differences, but hopefully there is a fair opportunity for the 
minority to have their say. We try to do that here. Sometimes 
we are even successful at it. We pass a lot of bipartisan 
legislation out of this subcommittee and full committee. It is 
always our intent to get to that point if we can.
    So obviously, a lot of issues before us. I look forward to 
your testimony. With that, I would yield the balance of my time 
to the vice chair of the committee, Mr. Latta.
    Mr. Latta. Well, thank you very much, Mr. Chairman, for 
yielding, and thanks to our Commissioners for being with us 
today.
    Lately, the Federal Communications Commission has proposed 
substantial rules without respect to their full effects and 
implications. The rules proposed on privacy requirements for 
broadband Internet service providers go beyond protecting 
consumers' data and fragments the current successful privacy 
framework established by the Federal Trade Commission.
    Another example I am still very concerned with is the 
Commission's vision on the set-top box proposal. No one is 
opposed to the goal of promoting alternatives to pay TV 
provider set-top boxes, but the FCC's plan is not the answer 
for addressing consumer demands.
    I am, however, encouraged that the Commission has seemed 
more open to making necessary changes to the Chairman's 
proposal. I urge the Commission to continue to work with the 
industry to develop an alternative plan that will foster 
competition and innovation while protecting small TV providers 
from onerous regulations, offer consumers more choice of 
privacy protection and safeguarding programming content and 
license agreements.
    Concerning the Commission's integral role in this 
marketplace, we must be watchful of the regulatory policies it 
places on the communications and technology industries. Today's 
hearing is an opportunity to maintain proper oversight of the 
FCC, Mr. Chairman, and I look forward to today's hearing and I 
appreciate and I yield back.
    Mr. Walden. The gentleman yields back the balance of his 
time. The Chair recognizes the gentlelady from California, the 
ranking member of the subcommittee, Ms. Eshoo, for opening 
comments.

 OPENING STATEMENT OF HON. ANNA G. ESHOO, A REPRESENTATIVE IN 
             CONGRESS FROM THE STATE OF CALIFORNIA

    Mr. Eshoo. Thank you, Mr. Chairman, for holding this 
oversight hearing. Good morning to you, Mr. Chairman, and the 
members of the Commission. It is good to see all of you.
    This is the first oversight hearing since the Federal 
Appeals Court decision that upheld the FCC's net neutrality 
rules took place. I think and many think the ruling was a clear 
victory for the American people who believe in a free and open 
Internet and ensures that the Internet will remain a platform 
for innovation well into the future.
    So congratulations to you, Mr. Chairman, to the 
Commissioners, to the staff, to all the public advocacy 
organizations and the millions of people that contacted the 
Commission.
    The court's ruling also makes clear that the FCC is the 
sole Federal agency with authority to protect broadband users' 
privacy. Now some still argue that the Federal Trade Commission 
is the agency that should handle privacy protections for 
broadband. But the fact is that the FTC lacks the authority to 
do so. Under the law today, only the FCC can protect broadband 
user privacy. We can have a debate over the details of what the 
FCC should put into place, but I think the authority question 
is settled.
    Beyond privacy, the FCC has two other key issues it needs 
to act on before the end of the year. The first is opening up 
the set-top box market to more competition. The cable industry 
has put forward an alternative proposal and I am encouraged by 
the industry's recognition that competition is needed and that 
is actually required by law.
    The second issue is special access reform. INCOMPAS and 
Verizon have come together in an unprecedented way to provide 
the FCC with a framework to promote competition in this market. 
And we are all grateful to Congressman Doyle for leading on 
this issue relentlessly for over a decade. It is over a decade, 
isn't it, Mike, at least that? Yes, it feels that way anyway.
    So I urge the Commission to take advantage of the 
opportunities that the agreement presents to finally finish 
special access reform before the end of the year.
    And finally, I think it is really a source of shame that 
the majority continues to attack the Lifeline Program. Now 
whether it is an attempt to put an artificial cap on the fund 
or legislation to outright strip support for mobile phone 
service, I think that message is very clear. The majority is 
willing to rip away lifesaving communication tools from our 
most vulnerable citizens, including the ability to dial 911. I 
don't know which Commissioner would be willing to give that up 
themselves.
    So my thanks to Chairman Wheeler for his leadership, to 
each Commissioner for your work and for being here today, and I 
yield the remaining time that I have to Representative Doyle.
    Mr. Doyle. I want to thank you, Anna, for yielding to me. 
And, Mr. Chairman and the Commission, I want to add my voice to 
congratulate you on your victory last month in the U.S. Court 
of Appeals. I am glad to see the court affirmed what I and many 
of my colleagues have argued for years, that the FCC has the 
authority to ensure that the Internet remains an open platform 
for innovation and competition. This is a great victory for 
consumers and the Internet ecosystem at large.
    There is one area that I believe merits investigation and 
it is the Anti-Competitive Zero Rating, particularly when it is 
married with restrictive data caps. These policies, I believe, 
have the potential to harm consumers and inhibit innovation. I 
would like to see the Commission take some action to address 
these harmful policies.
    Finally, I want to also add my voice to urge the 
Commission. You have got three big things on the table to get 
done. And I would hope that the Commission finds a way to work 
together and get all three. Special access, I really don't want 
to go through another FCC Commissioner on special access and I 
think a solution is at hand. And I would urge you to follow 
through on that.
    I also believe, like Anna, that there is a path forward on 
set-top boxes. There has been an alternative solution offered 
by cable that I think merits consideration and we should take a 
look at and with regards to privacy, I know it is tough. I know 
there are issues between FCC and FTC, but I do believe if you 
all work together that there is a solution to be found, and I 
urge you to try to do that before you finish up your work this 
year. Thank you. I yield back.
    Mr. Walden. The gentlelady yields back the balance of her 
time. The Chair recognizes the chairman of the full committee, 
the gentleman from Michigan, Mr. Upton.

   OPENING STATEMENT OF HON. FRED UPTON, A REPRESENTATIVE IN 
              CONGRESS FROM THE STATE OF MICHIGAN

    Mr. Upton. Thank you, Mr. Chairman. Chairman Wheeler, 
members of the Commission, thank you again for joining us.
    Over the many times that we have convened, our message has 
been, my message has been consistent. The FCC has jurisdiction 
over one of the most important and vibrant sectors of our 
economy. Decisions are critical to innovation, jobs, and our 
Nation's leadership in global technology.
    What you do and how you do it has tremendous impact on all 
of us today, tomorrow, and for lots of years to come. And it 
matters here in Washington. It matters at home in Michigan. It 
matters across the country.
    We ask you to follow the lead of this committee and its 
pursuit to improve the FCC process for the betterment of all 
stakeholders. And dating back to the 112th Congress, we worked 
in a bipartisan way to usher H.R. 2583, the FCC Process Reform 
Act, through the House.
    And we urge the agency to engage in a fair, open, 
transparent process in the execution of its mission. We stress 
that your loyalty to these things provides the certainty that 
nurtures innovation, investment, and job creation.
    When we last met, the Chairman had recently presented his 
colleagues with a proposal to impose new requirements on the 
video subscription market and a new privacy regime for Internet 
service providers. These proposals have the potential to harm 
the very sectors that are attempting to preserve and stimulate 
and concerns continue to grow on both sides of the aisle.
    American consumers across the country and job creators are 
concerned with continued innovation, investment, and job 
creation that the communications and technology industries have 
delivered in the past. If you approach these significant 
matters and all others in the last couple of months, do so with 
an eye towards the successful policies that have fostered the 
video market and the Internet that are the cornerstones of 
American society. It is not time to throw in the towel. There 
remain opportunities to work across the aisle to get things 
done that really impact consumers, resolving concerns about 
rural call completion, successfully completing the incentive 
auction, and preventing the waste, fraud, and abuse in the 
Universal Service Fund should be bipartisan issues that we can 
agree on.
    Let us continue to work to the better, putting more of a 
premium on cooperation. There is a lot at stake and we need to 
get that done.
    [The prepared statement of Mr. Upton follows:]

                 Prepared statement of Hon. Fred Upton

    Chairman Wheeler and members of the Commission, thank you 
for joining us. Over the many times we have convened, my 
message has been consistent, the FCC has jurisdiction over one 
of the most important and vibrant sectors of our economy--its 
decisions are critical to innovation, jobs, and our Nation's 
leadership in global technology. What you do and how you do it 
has a tremendous impact on all of us--today, tomorrow, and for 
years to come. It matters here in Washington. It matters back 
home in Michigan. It matters everywhere.
    We asked you to follow the lead of this committee in its 
pursuit to improve FCC process for the betterment of all 
stakeholders. Dating back to the 112th Congress, we've worked 
in a bipartisan way to usher H.R. 2583, the FCC Process Reform 
Act through the House. We urged for the agency to engage in 
fair, open, and transparent process in the execution of its 
mission. We stressed that your loyalty to these things provides 
the certainty that nurtures innovation, investment, and job 
creation.
    Unfortunately, notwithstanding our repeated calls, all 
indications are that these requests have been ignored and that 
the FCC is broken--honest and vigorous policy debate, 
compromise, and collegiality are by all accounts absent on the 
eighth floor: an observation supported by the ever growing list 
of 3-2 votes. The agency has sadly become tainted by partisan 
politics, and seemingly lost its independence.
    When we met last, the Chairman had recently presented his 
colleagues with a proposal to impose new requirements on the 
video subscription market and a new privacy regime for Internet 
service providers. These proposals have the potential to harm 
the very sectors they are attempting to preserve and stimulate, 
and concerns continue to grow from both sides of the aisle.
    Folks back in Michigan, American consumers across the 
country, and job creators are concerned with continued 
innovation, investment, and job creation that the 
communications and technology industries have delivered in the 
past. As you approach these significant matters--and all others 
in these last months--do so with an eye toward the successful 
policies that have fostered the video market and Internet that 
are cornerstones of American society.
    While the agency has lost its way, it's not time to throw 
in the towel. There remain opportunities to work across the 
aisle to get things done that really impact American consumers. 
Resolving concerns about rural call completion, successfully 
completing the incentive auction, and preventing waste, fraud, 
and abuse in the Universal Service Fund should be bipartisan 
issues. Let's continue working to do better. Putting more of a 
premium on cooperation than on partisanship. There is much at 
stake, and we all want a flourishing and functioning, truly 
independent agency to help guide our economy for years to come.

    Mr. Upton. I yield the balance of my time to Mrs. 
Blackburn.
    Mrs. Blackburn. Thank you, Mr. Chairman. I join in 
welcoming each of you. We are so pleased that you are here. You 
have heard a myriad of issues that we are continuing to work on 
and appreciate that you would take the time to come and update 
and engage in conversations with us.
    Today, I am going to focus much of my attention on the set-
top box issue. This is something we are hearing a good bit 
about and I am pleased that independent programmers have come 
to you with what could be an alternative approach that would 
still protect content. I should say it would protect content.
    For my content creators in Tennessee and individuals that I 
am hearing from, they are very concerned about this, not only 
in the domestic market, but what it would do to licensing 
agreements, et cetera, and their ability to work through this 
process. My content creators believe that if you create 
something, it is yours, and you deserve to be compensated on 
it.
    So I am pleased that you are here to enter into this 
discussion. We appreciate so much your time and your 
preparation, and Mr. Chairman, I yield back.
    Mr. Walden. The gentlelady yields the balance of her time. 
The Chair recognizes the gentleman from New Jersey, Mr. 
Pallone, ranking member of the full committee.

OPENING STATEMENT OF HON. FRANK PALLONE, JR., A REPRESENTATIVE 
            IN CONGRESS FROM THE STATE OF NEW JERSEY

    Mr. Pallone. Thank you, Mr. Chairman. Today's hearing comes 
weeks after the FCC's sweeping net neutrality victory before 
the DC Circuit. The court's decision was a major victory for 
Internet consumers and small businesses and the ruling was a 
momentous step towards legal certainty that the Internet 
remains an open platform for everyone. It was also a strong 
recognition of pro-consumer and pro-innovation policies that 
Democrats have championed for years.
    The court's decision helps create a stronger foundation for 
future policies that put consumers in the driver's seat.
    And now as we look ahead, we still have a number of issues 
before us including how to deal with Internet privacy. A recent 
study by the National Telecommunications and Information 
Administration found 84 percent of Americans are worried about 
their privacy and security online. And we must take these 
concerns seriously. And I appreciate the Federal Trade 
Commission who oversees privacy on Web sites providing 
thoughtful input into the FCC's proceedings. We should give 
consumers more protection online and not less.
    During this oversight hearing today, we are likely to hear 
more from our Republican colleagues about the Lifeline Program 
that keeps our Nation's low-income families connected. For 
months, Republicans have used charges of waste, fraud, and 
abuse to justify wrong-headed bills designed to rip phones away 
from those who need them the most.
    This morning I am releasing a Democratic committee staff 
report that investigated the on-going Republican charges. The 
report found that Republican allegations of more than $500 
million in fraud are baseless, relying on unfounded assumptions 
and bad data. In order to get to their $500 million claim, 
Republicans first assumed that every Lifeline recipient in a 
homeless shelter, in a veterans' group home, in a nursing home 
or just living with roommates to get by, that nearly every one 
of these people got their phone as a result of fraud. There is 
simply no way to justify these assumptions and it is incredibly 
counterproductive to any serious discussions on how to improve 
and strengthen this program.
    Our report finds that most of the waste, fraud, and abuse 
that have plagued the program resulted from policies the FCC 
adopted during the Bush administration and while some waste, 
fraud, and abuse likely still does take place, the FCC has 
worked hard over the past few years to track it down and wipe 
it out. Nearly $1 billion of unnecessary spending has been 
eliminated from the program as a result of the FCC's actions 
over the last 6 years.
    So I will repeat what I have been saying for months. 
Lifeline is a successful program that helps more than ten 
million Americans and we need to protect it. If my colleagues 
are serious about eliminating waste, fraud, and abuse in the 
program, stop these over-the-top accusations. Our report has a 
number of recommendations on productive ways to move forward. 
And so I encourage our Republican colleagues to work with us to 
make this critical program stronger.
    [The prepared statement of Mr. Pallone follows:]

             Prepared statement of Hon. Frank Pallone, Jr.

    Today's hearing comes weeks after the FCC's sweeping net 
neutrality victory before the DC Circuit. The court's decision 
was a major victory for internet consumers and small 
businesses.
    The ruling was a momentous step toward legal certainty that 
the internet remains an open platform for everyone. It was also 
a strong recognition of pro-consumer and pro-innovation 
policies that Democrats have championed for years. The court's 
decision helps create a stronger foundation for future policies 
that put consumers in the driver's seat.
    And now, as we look ahead, we still have a number of issues 
before us, including how to deal with internet privacy. A 
recent study by the National Telecommunications and Information 
Administration found 84 percent of Americans are worried about 
their privacy and security online.
    We must take these concerns seriously. And I appreciate the 
Federal Trade Commission-who oversees privacy on Web sites--
providing thoughtful input into the FCC's proceeding. We should 
give consumers more protection online--not less.
    During this oversight hearing today, we are likely to hear 
more from my Republican colleagues about the Lifeline program, 
a program that keeps our Nation's low-income families 
connected. For months Republicans have used charges of waste, 
fraud, and abuse to justify wrong-headed bills designed to rip 
phones away from those who need them the most.
    This morning I'm releasing a Democratic committee staff 
report that investigated the ongoing Republican charges. The 
report found that Republican allegations of more than $500 
million in fraud are baseless, relying on unfounded assumptions 
and bad data.
    In order to get to their $500 million claim, Republicans 
first assumed that nearly every Lifeline recipient in a 
homeless shelter, in a veterans group home, in a nursing home, 
or just living with roommates to get by--nearly every one of 
these people got their phone as a result of fraud. There is 
simply no way to justify these assumptions, and it is 
incredibly counterproductive to any serious discussions on how 
to improve and strengthen this program.
    Our report finds that most of the waste, fraud, and abuse 
that had plagued the program resulted from policies the FCC 
adopted during the Bush administration. And while some waste, 
fraud, and abuse likely still does take place, the FCC has 
worked hard over the past few years to track it down and wipe 
it out. Nearly $1 billion of unnecessary spending has been 
eliminated from the program as a result of the FCC's actions 
over the last 6 years.
    So, I will repeat what I've been saying for months. 
Lifeline is a successful program that helps more than ten 
million Americans and we need to protect it. If my colleagues 
are serious about eliminating waste, fraud, and abuse in the 
program, stop these over-the-top accusations. Our report has a 
number of recommendations on productive ways to move forward. 
We encourage our Republican colleagues to work with us to make 
this critical program stronger.
    Thank you to all of the Commissioners for testifying here 
today.

    Mr. Pallone. I would like to yield--well, I want to thank 
the Commissioners for testifying here today, and I will yield 
the remainder of my time to Congresswoman Clarke.
    Ms. Clarke. I thank the ranking member for yielding me 
time. I thank our chairman and ranking member for this 
morning's oversight hearing.
    Mr. Chairman and FCC Commissioners, good morning. According 
to the U.S. Census Bureau, by the mid-2040s, if not before, 
America will be a majority minority nation, meaning that the 
majority of Americans will be non-European descent people of 
color. It is critical that his population has access to news, 
information, and entertainment that is reflective of their 
experiences and their perspective. Without this representation, 
there is no voice reflective of their stories and without a 
voice, our cultural content suffers, thus decreasing cross-
cultural communication and understanding.
    My core concerns focus on equity and inclusion and the 
media and telecommunications industry. And I am particularly 
concerned that we are not doing enough to create parity for all 
stakeholders.
    I recently formed the House Congressional Multi-Cultural 
Media Caucus where caucus members will offer suggestions and 
recommendations to the FCC to ensure that these tenets are 
considered when public policy decisions are being made. The 
goal is simple, to create economic sustainability and viability 
of multi-cultural media in any ecosystem. The owners of our 
Nation's media are shaping the public's narrative and it is 
important that it is inclusive in both representation on the 
airwaves, as well as ownership of its assets.
    Thank you very much, Mr. Ranking Member, and I yield back 
the balance of my time, his time to him.
    Mr. Walden. And he yields it back to the committee. So 
thank you all for your opening comments. We will go now to the 
Chairman and the Commissioners for their testimony.
    And Mr. Chairman, we welcome you back before our 
subcommittee. And I think you have heard from members on both 
sides of the aisle about issues they are deeply concerned about 
and the direction of the FCC and we appreciate your being here 
to respond to those and any other comments you may have.

  STATEMENTS OF TOM WHEELER, CHAIRMAN, FEDERAL COMMUNICATIONS 
     COMMISSION; MIGNON L. CLYBURN, COMMISSIONER, FEDERAL 
 COMMUNICATIONS COMMISSION; JESSICA ROSENWORCEL, COMMISSIONER, 
  FEDERAL COMMUNICATIONS COMMISSION; AJIT PAI, COMMISSIONER, 
   FEDERAL COMMUNICATIONS COMMISSION; AND MICHAEL O'RIELLY, 
        COMMISSIONER, FEDERAL COMMUNICATIONS COMMISSION

                    STATEMENT OF TOM WHEELER

    Mr. Wheeler. Thank you very much, Mr. Chairman, Ranking 
Member, and all members of the committee.
    Today is a special day, obviously, with this committee 
coming together. We also have to recognize it is a special day 
for another reason. It is Commissioner Rosenworcel's birthday 
today.
    Mr. Walden. Happy birthday.
    [Applause.]
    Mr. Wheeler. We can find unanimity on that resolution.
    Ms. Rosenworcel. Such a great way to spend my birthday here 
with you all.
    [Laughter.]
    Mr. Walden. Is there a hint of sarcasm?
    Mr. Wheeler. I have three quick topics to address, some of 
which you also have raised, Mr. Chairman, and I look forward to 
have questions from you and the rest of the committee: the 
incentive auction, the national priority of 5G, and as you 
indicated, next-generation 911.
    The incentive auction has sure put the lie to the claim 
that broadcasters wouldn't show up and participate. And the 
credit goes to this committee, your leadership, the ranking 
member's leadership for your foresight, vision, and leadership 
in creating this first in the world auction.
    The broadcasters have made available 126 megahertz. And 
what is really significant is that 99 percent of all the 
licenses that would be created are unimpaired licenses. And we 
spent a lot of time together worrying about impairment issues. 
It is the world's first reverse auction. It worked flawlessly 
and kudos are owed to Gary Epstein and Howard Symons and the 
team that has been working literally for years to follow 
through on your instructions.
    And now it is time to move on to the forward auction. For 
as long as I can remember--and I am sure you, too--the wireless 
industry has been pleading for more spectrum. Well, they got 
it, and it is beachfront spectrum at 600 megahertz. Our job is 
to create a market that makes that spectrum available. We now 
know the ``ask'' in that market, and we will soon know the bid.
    We have received the up-front payments from the wireless 
carriers, qualifying them to bid. And we will shortly be 
issuing a PN, public notice, indicating who those bidders are.
    If there is no bid ask alignment, we will start over with a 
reduced supply and we will keep working that until the market 
is made. Because of how licenses are assigned, the steps would 
be 120 megahertz, 114 megahertz, 108 megahertz, 84 megahertz. 
But I will remind everyone that the average of the FCC auctions 
over the years has been about 45 megahertz. So this is a big 
deal no matter what the number is.
    The bottom line is that your mandate is under way. The 
decisions made in the design of the auction are working. The 
systems are functioning and a market has been created for the 
first time ever.
    On Thursday, we will vote on another important spectrum 
issue to open up high-band spectrum for fifth generation 
wireless licensed and unlicensed spectrum. It is another world 
first. We will be the first nation to identify high-band 5G 
spectrum which means that in the last 2 years, we have made 
available low-band spectrum, mid-band spectrum, and high-band 
spectrum.
    Europe, by comparison, is talking about how maybe by 2020 
they will have low-band and mid-band and what their plans are 
for high-band are still very much up in the air.
    Our leadership in this is a national priority. The 21st 
century belongs to high-speed, high-capacity, low-latency 
wireless networks. And if we are the first in the world to move 
as we are hopefully going to do on Thursday, we will create a 
home-field advantage for those American companies and American 
workers who are involved in infrastructure, software and 
services.
    Our plan is to make the spectrum available and then get out 
of the way of the technology. The reality of our networks that 
we live in today is a reality that was created years ago, a 
decade ago, by decisions that were made or weren't made. The 
decision that we are going to make on Thursday will affect 
where this country is going to be for decades to come.
    Lastly, every time that I have been before you, I have 
urged Congress to legislate, to protect public safety over the 
next-generation 911 capabilities. Mr. Chairman, thank you for 
raising it today. The Commission has gone about as far as our 
authority can take it. I know Commissioner Rosenworcel has been 
touring 911 facilities. She wrote a spot-on op-ed on the topic 
and I know she has some thoughts in her testimony. And I have 
some recommendations in my prepared text as well.
    But here is the reality. Absent congressional action, there 
is no national program to improve public safety by applying the 
technology of next-generation 911. We are in the second decade 
of the 21st century and we are still relying on mid-20th 
century technology.
    I appreciate the opportunity to be here, Mr. Chairman, and 
I look forward to engaging in discussion on any topics you may 
want to ask.
    [The prepared statement of Mr. Wheeler follows:]
    
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
    
    
        
    Mr. Walden. I thank the Chairman. Obviously, we are willing 
to have that discussion on 911. We also, I would remind him, 
did a lot on FirstNet and enhancing that and some 911 
enhancements there. We know there is more to be done.
    We now recognize the former Chairwoman of the Commission, 
the gentlelady, Ms. Clyburn. Thank you for being here, 
Commissioner, we look forward to your comments.

                 STATEMENT OF MIGNON L. CLYBURN

    Ms. Clyburn. Thank you very much. Chairman Walden, Ranking 
Member Eshoo, distinguished members of the subcommittee, thank 
you for the opportunity to once again appear before you this 
morning to share my priorities and vision for a more connected 
America.
    Building on my mantra, community, community, community, in 
April I launched a ConnectingCommunities tour as a way to hear 
firsthand about the opportunities and challenges of bringing 
affordable, diverse, and competitive communications services to 
all Americans.
    Last month, I traveled to the ranking member's district and 
met several key innovators who are using technology to drive 
advancements in healthcare, broadband infrastructure, 
connectivity, and viewpoint diversity. Next month, I will 
travel to Congressman Lujan's district to learn about the 
unique communications needs of tribal communities.
    Now as I travel the country, people voice a common refrain, 
robust competition, affordably priced communications services, 
and policies that will enable innovation to flourish.
    Broadband is the way that a 21st century America connects 
with communities. It is with this in mind that I continue to 
prioritize affordable broadband opportunities.
    Modernizing our Lifeline Program was a momentous step in 
bringing affordable broadband to more Americans, but we can and 
must do more to make sure those economically disadvantaged are 
not priced out of the digital opportunity and the digital 
economy.
    Broadband is not truly available unless it is affordable. 
How can we make this happen? It starts with better data and a 
thorough analysis of consumer broadband costs. It also means 
making sure that affordability is a factor in how the 
Commission evaluates technology transitions. And it also means 
moving forward on a permanent Mobility Fund to bring the 
benefits of affordable mobile broadband to those currently 
without.
    Our great nation is on the cusp of ushering in the next 
generation of wireless broadband with the Commission's action 
this week to free up high-band spectrum for innovative 5G 
services. With an ever-increasing percentage of low-income 
Americans reliant on mobile broadband for online access, it is 
imperative that we ensure that they can reap the benefits of 5G 
and they are not left in the digital darkness.
    But my quest to connect all communities is not limited to 
broadband. It is also about examining how best to promote the 
availability of diverse and independent sources of video 
programming. The Commission heard repeated concerns of 
independent and diverse programmers from every conceivable 
ideological spectrum and followed through with the adoption of 
a Notice of Inquiry this past February.
    I am now working with Chairman Wheeler to determine next 
steps, but no matter the outcome, I believe the Commission has 
come out of this fact-finding exercise better positioned to 
identify solutions that can enhance our access to independent 
and diverse voices.
    Finally, I continue to believe that transparency should be 
a driving principle in the Commission's work to promote 
consumer choice, competition, and innovation.
    It should come as no surprise that billing issues rank 
among the top consumer complaints at the FCC. Knowing this, I 
partnered with Congressman Doyle on an op-ed calling for the 
Nation's communications providers to lead the way by 
voluntarily improving transparency and disclosure of ``below-
the-line'' fees. Enhanced transparency will ensure that when 
consumers sign up for service, either online or in a store, 
that they will not have to wait for their first bill to learn 
what their total monthly costs will be.
    Thank you once again for allowing me to share my priorities 
with you this morning. And I look forward to answering any 
questions you may have.
    [The prepared statement of Ms. Clyburn follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
    
    
    
    Mr. Walden. Thank you very much, Ms. Clyburn. We appreciate 
your testimony and your work at the Commission.
    We now go to Ms. Rosenworcel. Thank you for being here 
again. Happy birthday to you and we are glad we could celebrate 
it with you.
    Ms. Rosenworcel. Thank you.
    Mr. Wheeler. Please go ahead.

                STATEMENT OF JESSICA ROSENWORCEL

    Ms. Rosenworcel. Good morning, Chairman Walden and members 
of the subcommittee. Thank you for the opportunity to appear 
before you today.
    This week the Commission has the future on its agenda. At 
our monthly meeting on Thursday, we will adopt a framework for 
high-band spectrum to help develop the next generation of 
wireless services, known as 5G. This is exciting because the 
future belongs to the connected. And the United States should 
lead.
    However, I want to spend my time today not talking about 
the future, but instead talking a little bit about the here and 
now and what can be done right now to help improve our Nation's 
emergency number system.
    Last month, I was in Dallas, a city that is still reeling 
from the events of last week when a peaceful protest collapsed 
into unthinkable violence. While in Dallas, I spent time with 
Betty Wafer. She is the kind of person who knows the Big D 
inside and out. She was born and raised in the city and over 
the course of 33 years has risen to the top of its public 
safety ranks. She now wears the uniform and is in charge of 911 
Communications for the Dallas Police Department. There is not a 
lot she hasn't seen. Like most people who work the 911 front 
lines, she has a steely calm. After all, these are people who 
listen to us at our most troubled, and then help ensure that 
help is on the way.
    And as we walked through the Dallas 911 center, Ms. Wafer 
spoke about how technology has changed during her more than 
three decades on the job and how it has altered the ways we 
reach out in times of emergency. And the numbers back her up 
because nationwide we now call 911 240 million times a year. 
And more than 70 percent of those calls are made from wireless 
phones rather than traditional landline phones. In other words, 
the bulk of our emergency calls come over a different 
technology than the 911 system was designed to use.
    This is a problem. Because while technology has changed so 
much in our lives, the communications systems used by our 
Nation's 911 call centers have not fully kept pace. I know 
because I have seen this firsthand, not just in Dallas, but in 
the nearly two dozen 911 call centers I have visited all across 
the country from Alaska to Arkansas, California to Colorado, 
Nevada to New Jersey, Vermont to Virginia and many more places 
in between.
    It is not that work is not being done. I mean in the last 2 
years alone, with my colleagues we have been able to put in 
place policies to advance texting to 911. We have devised a 
framework to improve the ability of 911 call centers to 
identify the location of emergency calls made from wireless 
phones. And this is progress. But what can come next is even 
bigger.
    Next-generation 911 services can support a whole new range 
of video and data communications. For those who call in an 
emergency, it will mean an opportunity to offer real-time video 
from an accident. It will mean the ability to provide first 
responders with instantaneous pictures of a fleeing suspect or 
emergency incident. And those are the kind of capabilities that 
make public safety both more effective and more responsive.
    But to remake the Nation's 911 systems to fully reflect the 
digital age, it takes funding. And historically supporting our 
Nation's roughly 6,000 911 call centers has been strictly a 
local affair. There is no national program or annual Federal 
revenue source. But still, there is one thing this committee 
can do right now to kick start local 911 modernization.
    It is this. As you know, the Middle Class Tax Relief and 
Job Creation Act of 2012 authorized a series of spectrum 
auctions at the Commission. These auctions have already raised 
billions. And the proceeds from these auctions are dedicated to 
some initiatives that get a lot of attention like FirstNet, 
like assisting broadcasters with relocation in the 600 
megahertz band, and like deficit reduction. But there is 
program these spectrum auctions fund that has not get gotten 
the glory it deserves and that is a program for next-generation 
911.
    Section 6503 reinstates the joint 911 Implementation Office 
and authorizes a $115 million grant program for next-generation 
911. You might be familiar with it because this committee 
developed the program. But it has stalled and has yet to begin 
more than 4 years after this committee created it and after 
Congress authorized its creation.
    So I think if you can help us you can put on the pressure 
because it is time to get it up and running. It is the best 
near-term resource we have to put next-generation 911 in place. 
And while these funds are limited, they can have broad impact 
if we use them wisely and fund next-generation 911 projects 
that can be a blueprint for updating services in Dallas and 
nationwide.
    Thank you.
    [The prepared statement of Ms. Rosenworcel:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
    
   
    
    Mr. Walden. Thank you, Commissioner Rosenworcel. We 
appreciate you bringing that to our attention. Obviously, we 
get pretty frustrated when agencies and commissions don't do 
what they are mandated to do by statute on a timely manner. And 
so we are happy to follow up with that.
    We will now go to Commissioner Pai. Commissioner Pai, thank 
you for joining us. We look forward to your testimony as well.

                     STATEMENT OF AJIT PAI

    Mr. Pai. Thank you, sir. Chairman Walden, Ranking Member 
Eshoo, and members of the subcommittee, thank you for giving me 
the opportunity to testify this morning. Since 2012, it has 
been an honor to work with you on a bipartisan basis on many 
issues.
    Kari's Law is a good example of this. Dialing 911 should 
always work, but it sometimes doesn't. And the reason is that 
many phone systems require callers to dial an access code like 
a 9 before the call is placed. Kari's Law would help fix this 
by making direct 911 calling the default on those systems.
    Thanks to your work, along with the courageous efforts of 
Kari's father, Hank Hunt, the House of Representatives recently 
passed this legislation. I hope the Senate does so and that 
this bipartisan measure soon becomes law.
    I would like to focus the rest of my testimony on two 
important topics: the FCC's set-top box proposal and its 
Lifeline Program.
    First, set-top box. The breadth of opposition to the 
Commission's set-top box proposal signals how badly its scheme 
misses the mark. My friend and colleague, Commissioner 
Rosenworcel, rightly observed that the FCC's proposal has real 
flaws and we need to find another way forward.
    What should that way forward look like? In my view, first, 
it must protect the intellectual property of content creators 
and safeguard minority programmers. As Jesse Jackson put it, 
the FCC's proposed rules would allow third-party set-top box 
manufacturers to ``pull networks apart, ignore copyright 
protections, and dismantle the local and national advertising 
streams that have traditionally supported high quality, multi-
cultural content.'' That is why Congresswoman Yvette Clarke and 
many other members of the Congressional Black Caucus have 
called upon the FCC to analyze the impact of these proposed 
rules on the diversity of programming and independent and 
minority television programming before pushing ahead. We should 
heed those voices.
    Second, we must address the challenges faced by small video 
providers. The record makes clear that the FCC's proposed rules 
would have a disproportionate impact on small companies. 
Indeed, the American Cable Association has stated that the 
FCC's proposal would force over 200 small operators to go out 
of business or to stop offering video service. Separately, 
bipartisan groups of 61 Representatives, led by Congressman 
Kevin Cramer and 10 Senators have expressed serious concern 
along these lines.
    Third, we must protect Americans' privacy. Senator Patrick 
Leahy has stressed that the ``same Federal privacy protections 
and enforcement mechanisms that apply to proprietary set-top 
boxes today should apply to third-party navigation systems as 
well.'' In other words, all consumers should have the same 
privacy protections. Unfortunately, the FCC's proposal fails 
this basic test.
    And fourth, we must embrace the technology of the future 
instead of clinging to the hardware of the past. Americans are 
increasingly accessing video programming through apps. With an 
app, there is no need to have a set-top box or the rental fee 
that goes along with it. With an app, your smart phone, your 
tablet, or your smart television can be your navigation device.
    Recently, as has been mentioned by members of the panel, 
stakeholders have proposed an app-based approach. My office is 
currently reviewing this promising proposal and I look forward 
to hearing what the members of this subcommittee think about 
it.
    The next topic is Lifeline. The FCC must be vigilant in 
stopping abuse of the Universal Service Fund. Hard-working 
Americans deserve to know that the money they contribute each 
and every month to the fund isn't wasted or put to fraudulent 
use. Unfortunately, the FCC's recent investigation of Total 
Call Mobile suggests that American taxpayers should be worried. 
Although my own investigation is still ongoing, the waste, 
fraud, and abuse in the Lifeline Program appears greater than I 
had imagined.
    Consider this. The National Lifeline Accountability 
database or NLAD, is supposed to check whether a subscriber 
already receives Lifeline service. But an unscrupulous wireless 
reseller can override that determination simply by checking a 
box and so wireless resellers have enrolled over 4.2 million 
subscribers using this override process since October of 2014. 
That is more than 35 percent of all subscribers enrolled in 
NLAD-participating States. And that is more than the population 
of the State of Oregon. The annual price to the taxpayer for 
these overrides alone is steep, about $476 million. That is not 
my only concern.
    Wireless resellers have overridden other Federal 
safeguards, enrolled actual duplicates, claimed support for 
phantom customers, and otherwise exploited loopholes in the 
program that likely resulted in hundreds of millions of dollars 
in USF money and taxpayer money going to wireless resellers 
instead of to deserving, low-income consumers. That is 
outrageous.
    I plan to work with this committee and my colleagues to 
stopping this spending spree and I particularly appreciate the 
decision of Committee Chairman Fred Upton to investigate this 
kind of waste, fraud, and abuse.
    Chairman Walden, Ranking Member Eshoo, members of the 
subcommittee, thank you once again for giving me the 
opportunity to testify. I look forward to answering your 
questions and working with you in the time to come.
    [The prepared statement of Mr. Pai follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
    
    
    
     Mr. Walden. Thank you, Commissioner Pai, we appreciate 
your diligence and your comments this morning.
    We will now go to Commissioner O'Rielly. Thanks for being 
with us, again for enlightening us on what your views are at 
the Commission and issues before the country. Please go ahead 
with your testimony.

                 STATEMENT OF MICHAEL O'RIELLY

    Mr. O'Rielly. Thank you, Mr. Chairman. Thank you for the 
honor to appear before you today.
    Let me start my testimony on an issue raised by my 
colleague, the Lifeline Program. I continue to be troubled by 
the waste, fraud, and abuse in the program and worry that it is 
not on a sufficiently sound footing. In retrospect, I had urged 
the Commission to address these concerns before expanding 
Lifeline to include broadband. When it became clear that the 
Commission was on a different track, I recommended reforms be 
paired with adequate measures to safeguard the program and 
protect consumers that pay fees to support the fund, including 
establishing procedures to stop new payments to a provider if 
certain metrics were exceeded, a concept I have referred to as 
creating circuit breakers.
    These ideas were ultimately rejected, in part, because the 
Lifeline order took the position that the reforms put in place 
since 2012 including the creation of a National Lifeline 
Accountability Database were highly effective. Sadly, that has 
not been the case. If more is not done to correct the 
situation, everyone should expect more incidents of waste, 
fraud, and abuse.
    Turning to the debate over set-top boxes, I share the 
concerns that many members of this committee have expressed 
about the Commission's proposed technology mandate as contained 
in the NPRM. In my dissent to that item, I argued that the 
proposal could significantly impede innovation in video 
delivery and put at risk valuable content as well as consumer 
privacy without assurances that anyone would save one thin 
dime. I have taken the position that it would make more sense 
to get rid of set-top boxes altogether. A common-sense, 
technology-friendly replacement for set-top boxes already 
exists in the form of downloadable apps, which can serve as the 
basis for a consensus approach to the set-top box quandary. 
Various video providers have strengthened this argument and 
approach by firm commitments on timing and price.
    Another issue of interest to the subcommittee is the 
Commission's long-awaited attempt at the required Quadrennial 
Review of media ownership rules. While American consumers 
embrace players such as MVPDs, over-the-top video players, Web 
sites, streaming music services, and satellite radio as part of 
their daily lives, broadcasters and newspapers alone are 
saddled with rules from a bygone era. I believe the Commission 
can better promote localism, competition, and diversity and be 
consistent with the public interest by thoughtfully removing 
outdated restrictions to media combinations.
    It has been argued that now is a bad time to introduce any 
disruption in the existing media ownership regime, due to the 
ongoing broadcast incentive auction. However, nothing excuses 
the retention of all the stale rules regarding radio and 
newspaper industries which will see little to no impact from 
the auction. Moreover, Congress was well aware of the 
Quadrennial Review requirements when it authorized the auction, 
and no special ``pending auction results'' or ``during the 
auction'' exemption was enacted. So the incentive auction 
cannot and does not let the Commission off the hook regarding 
its responsibilities to modify the rules in response to the 
marketplace conditions that actually exist today.
    On another matter, the Commission seems intent on adopting 
broadband privacy rules this year, but if the current proposal 
is adopted, it will affect the consumer Internet experience and 
reverberate throughout the technology industry for years to 
come. In addition to the legal problems I have previously 
articulated, the Commission has not justified imposing 
dramatically higher burdens on one segment of the Internet 
economy. By most accounts, current privacy structures, 
including the FTC's framework, have provided ample and 
appropriate protections for consumers. The FCC's proposal, 
however, goes much further. Instead of creating privacy rules 
based on consumer expectations and the sensitivity of the data, 
the FCC's proposal would require heightened consent for many 
consumer activities and could even prohibit certain practices 
that many consumers find beneficial.
    The record is full of many thoughtful comments from a wide 
range of participants, and I can only hope that the Commission 
will take them into account when crafting the final rules.
    Lastly, let me mention that my written testimony raises the 
need to consider legislation to enact fees in a spectrum-
sharing environment where mutual exclusivity which is needed to 
trigger an auction is not obtained. I would be pleased to 
follow up on this topic if interest warrants.
    Thank you for the opportunity to testify and I stand ready 
to answer any of your questions.
    [The prepared statement of Mr. O'Rielly follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]   
    
    
    Mr. Walden. Thank you, Commissioner O'Rielly, and yes, we 
will look forward to further discussions on that last topic you 
raised.
    I am going to open up the questioning round. First of all, 
before I get started on questions, I do have a letter for the 
record signed by 14 law professors, economists, and experts on 
the operation of the Internet that details a number of very 
serious legal, economic, and constitutional concerns with 
regard to the FCC's proposed new rules for broadband privacy, 
some of which you have raised. Without objection, we will put 
that in the record.
    Now some questions. I met recently with folks from the 
Oregon Shakespeare Festival in Oregon, the Manhattan Theater 
Club and others, about this issue of licensed and unlicensed 
wireless microphones. Apparently, the FCC set a limit of 50 or 
more you can get licenses. Under 50, you can't. I don't know 
why 50 was chosen, but I do know representing one of the best 
theater companies in the world, the Shakespeare Theater 
Festival in Ashland, they are very concerned because they don't 
use 50 mikes, but now they can't get licensing and they are 
going to have a real mess. It is going to be expensive. It is a 
problem. It is not the sort of thing normally rises to a 
hearing level. I will follow up in writing with you, but just 
know from what they indicated it is a serious issue that will 
affect them and every other. There are only a couple of theater 
companies apparently on Broadway maybe that are big enough to 
get licensed and you have got all these regional ones that will 
be adversely affected.
    I want to go Lifeline since that has been brought up. Here, 
I will look forward to getting a copy of the Democrats' 
committee report. I was not aware of that. Have not read it. 
Look forward to the information and digesting it. But I am 
concerned, Commissioner Pai, about what you said about 4.2 
million consumers somehow get signed up and override one of the 
safeguards against fraud and abuse.
    I also know the Commission attempted to find common ground 
in a bipartisan way on this issue to try to get to a cap. 
Frankly, we were thinking the Commission was moving in a good, 
solid direction and I don't know what happened there. I 
understand there is an IG investigation, so I won't pursue it, 
but something went off the rails there. I am disappointed by 
that because we thought we were going to get the professional 
agency doing its professional job in that area and getting a 
cap that seemed to be reasonable and responsible. Very 
disappointed.
    So talk to me about this $4.2 million. Talk to me about the 
level of waste, fraud, and abuse. From what I have read in the 
press reports and the Democrats' position paper, they say there 
is no fraud, waste, or abuse increase after '08. Is that the 
case?
    Mr. Pai. Well, thank you for the question, Mr. Chairman. My 
investigation is ongoing, so these results are preliminary, but 
thus far, I have uncovered five different species of fraud. The 
fraud that you asked about was what is known as an independent, 
economic, household verification or IEH. Essentially, enforcing 
the FCC's rule that not more than one person in a particular 
household can get a Lifeline subsidy.
    Now based on the figures that I have received from the 
Universal Service Administrative Company, or USAC, which 
administers the Lifeline Program on our behalf, since October 
of 2014, wireless resellers have enrolled over $4.2 million 
subscribers in the Lifeline Program. That is over one third of 
the total enrollment in the program.
    The annual price to the taxpayer just for these overrides 
for 1 year is $476 million. That is just one type of fraud, the 
type of fraud that the staff report talks about.
    The other four kinds are also critical, however. Simply 
duplicates, essentially one person getting the same Lifeline 
subsidy. Just for those overrides as well, those duplicates, 
there are hundreds of thousands of them since between October 
and May of 2015, October of 2014 and May of 2015. USAC is 
compiling the additional analysis beyond that. Those duplicates 
cost $23 million. There is a third which is phantom 
subscribers. Essentially, these resellers tell the NLAD we have 
a certain number of subscribers, but then when it actually 
comes to be paid, they file a different form suggesting they 
have a higher number of subscribers and they get paid based on 
that higher amount. Those phantom subscribers, as they are 
called, cost the taxpayers millions more.
    There is also what is known as the TPIV or Third Party 
Independent Verification process. Those two cost $122 million 
because of the override of identity vectors.
    And fifth and finally, address overrides cost $55 million. 
Altogether, we are talking about----
    Mr. Walden. Why do we even have an address override 
capability by a vendor?
    Mr. Pai. I think it is a serious problem, and that is one 
of the reasons why I started this investigation, is to figure 
out if there is a problem with this loophole, and, if there is, 
we need to fix it on a bipartisan basis.
    Mr. Walden. Chairman Wheeler, moving to a topic high on 
your mind on 911, is there anything that prevents the States 
from moving forward with these enhancements in their 911 
facilities? Is there any Federal prohibition on that? And 
second, do you think States that take money from consumers 
under the auspices of 911 and then spend it on non-911 related 
services should continue to get Federal support or is that 
something we should look at, saying if you are going to divert 
this money, you are not going to get the Federal money?
    Mr. Wheeler. Thank you, Mr. Chairman. You know, almost 20 
years ago I worked with Mr. Shimkus on the first national 911 
bill. And one of the things that was in that bill was that the 
FCC should try and work with the States to do exactly what you 
have talked about and how can you have a Statewide program? 
There is resistance to Statewide programs. There are exceptions 
to it obviously, it is for 50 States, but there is a resistance 
to that in many instances.
    Mr. Walden. But don't you think because I am going to run 
out of time as I have now, do you think we ought to go down a 
path of considering cutting off support if States are raising 
money under the auspices of 911--if I am a consumer in Oregon 
and I am paying a 911 fee, I am thinking that is going to 911 
services. I will tell you it really irritates you then to find 
out as a consumer no, that is just a scam.
    If this was a private entity, if this was a private phone 
company, how long would you put up with that on the below-the-
line billing practice?
    Mr. Wheeler. And, unfortunately, it is not new news. It 
goes back again, back to 20 years it has been happening. And I 
agree with you. If this were commercial, this would be a fraud, 
deceptive advertising.
    Mr. Walden. Deceptive advertising. And Ms. Rosenworcel, in 
terms of NTSA because we understand that is who has 
jurisdiction over what we mandated in the act a couple of years 
ago, happy to work with them, bring them in as well. Because as 
I said, you all know this first hand because you all have 
missed a few deadlines that are in statute in terms of reports 
back to us. We will push on NTSA to find out why they have not 
followed the statutory guidance of this Congress in their 
activities and appreciate the work you are doing. 
Unfortunately, it may be your birthday, but I am over time.
    So we will go to Ms. Eshoo now.
    Mr. Eshoo. Thank you, Mr. Chairman, and I would be glad to 
work with you on the issue of microphones in theaters.
    And I think that we should really seriously examine this 
issue of 911, the dollars that are collected by States, and 
then God knows what they do with the money. They use for it for 
everything but what the dollars are collected for. I think 
there should be a nexus between the Federal dollars that are 
expended and sent to States in order to set up what we know we 
need to serve the public well and if they want to take money 
from people, blow it elsewhere, I don't think they should 
qualify for Federal funds. So I would be glad to work with you 
on that.
    On the issue of set-top boxes, I just want to make this 
comment and I think that it is a very important one. Because it 
is a huge allegation which I don't think sticks and that is the 
issue of minorities and what all of that represents relative to 
cable.
    Twenty years ago, the Telecom Act was passed. In the 
ensuing 20 years, out of 500 channels there are 4 African-
American programmers that have programs and 2 Hispanic. So to 
say that the FCC's proposal that wants to unlock all of this to 
give opportunity and ignore what has happened under what 
cable--the cable industry has done, really is a head scratcher 
to me. I don't understand how anyone can say with the straight 
face that the cable industry has really made progress. So I 
just want to set that down.
    Mr. Chairman, some of the critics of your proposed 
broadband privacy rules argue that any rules you adopt should 
apply to edge providers as well as to broadband providers. So I 
have two questions. Does the FCC in your view have authority to 
extend privacy rules to edge providers? And also, critics argue 
that the FCC lacks the necessary expertise to develop and 
enforce privacy rules.
    Do you want to comment on both of those?
    Mr. Wheeler. Thank you very much, Congresswoman.
    Mr. Eshoo. And just briefly because I have more questions.
    Mr. Wheeler. First of all, the answer is no, we do not 
intend to extend our reach to edge providers. And second, and I 
have now forgotten your second--what was your second one?
    Mr. Eshoo. Does the FCC have the necessary expertise?
    Mr. Wheeler. Oh, yes.
    Mr. Eshoo. Because your critics are saying----
    Mr. Wheeler. For decades, for decades.
    Mr. Eshoo [continuing]. Give it to the FTC. We love the 
FTC, except there is other legislation to take just about every 
jurisdiction away from the FTC. So, I mean, we have got some 
hypocrisy here, really.
    Mr. Wheeler. Congresswoman, the reality is that for 
decades, we have been regulating the use of network information 
in the telephone network saying a phone company cannot make it 
available to a third party without the consumers' permission. 
It is exactly the same kind of concept that we are talking 
about in broadband.
    Mr. Eshoo. Good. Thank you. To Commissioner Pai, you assert 
that all duplicate households, subscribers, have been enrolled 
fraudulently. At least that is what I heard you say including 
those living in multi-household addresses like nursing homes, 
homeless shelters, veteran group homes. In what you have 
undertaken to examine all of this, have you examined the--what 
I just mentioned, these multi-household addresses? Have you 
included them? Excluded them? And tell me that first.
    Mr. Pai. Thanks for the question, Congresswoman. So based 
on the information that I have collected, 4.2 million which 
represents 35 percent of all Lifeline----
    Mr. Eshoo. I know that. You already testified to that. But 
I am asking you specifically in this investigation that you 
have taken on, have you examined multi-household addresses 
because they exist. They exist in my congressional district, in 
everyone's congressional district. And if you are using those 
multi-household addresses to allege that there is fraud, then 
you know what, you have to be really careful with this. You 
really have to be careful with this.
    Mr. Pai. I agree completely, Congresswoman, and that is why 
I said we don't know if it is potentially fraudulent. We need 
to investigate given the magnitude of that number.
    Mr. Eshoo. So you don't know, you are just saying it might 
be?
    Mr. Pai. That is why I did the investigation to figure out 
what the facts are.
    Mr. Eshoo. It might be.
    Mr. Pai. Correct.
    Mr. Eshoo. It might be. Do you have any evidence of fraud 
yet?
    Mr. Pai. In some of the other areas, we have uncovered 
potential fraud, but I----
    Mr. Eshoo. So there is no area that you have discovered 
fraud yet, is that correct?
    Mr. Pai. Well, I think if you look at all of the----
    Mr. Eshoo. No, just answer me yes or no.
    Mr. Pai. I believe I have uncovered potential fraud. We 
just need to gather----
    Mr. Eshoo. No. Just answer me yes or no. Have you uncovered 
any fraud so far? That is fair, OK?
    Mr. Pai. To date, I have not reached that conclusion.
    Mr. Eshoo. Not. OK. Thank you very much.
    Mr. Wheeler. Congresswoman, we do know the facts. I would 
be happy to give them for the record. There are 2.2 million 
Lifeline subscribers today who live in 890,000 multiple 
resident addresses. I have got a list here. So for instance, 
the Kalamazoo Gospel Mission, the Louisville Rescue Mission, 
the Associated Ministries of Tacoma, Rescue Mission Christian 
Ministry in Roanoke, et cetera, et cetera.
    The total represents----
    Mr. Walden. Conveniently located in the members of the 
subcommittee's districts.
    Mr. Wheeler. I am sorry, what?
    Mr. Walden. Just by happenchance members of the 
subcommittee.
    Mr. Eshoo. We all have them in our districts. They said 
that.
    Mr. Walden. I know.
    Mr. Wheeler. The point being that it is about 16 percent of 
our total. The Census Bureau tells us that somewhere between 20 
and 50 percent, depending upon your economic situation, 20 to 
50 percent of American households are doubled up households, 
just like the ones that I read. We are at 16 percent, which is 
the low end.
    So the answer to the question, yes, we do know what the 
number is. We do know the households.
    Mr. Walden. So you are going to say there is no fraud 
there. Yes or no?
    Mr. Wheeler. I am going to say to you, sir, that we are 
vigilantly working and the reason that we know----
    Mr. Walden. Just like Commissioner Pai.
    Mr. Wheeler. The reason that we know this is because we 
have been out making these kinds of investigations.
    Mr. Walden. Right. We do know there was a case of fairly 
substantial fraud that you all have gone over after, right?
    Mr. Wheeler. And the reality on that case, as is most of 
Commissioner Pai's so-called statistics is that he is reading 
from yesterday's newspaper.
    Mr. Walden. I don't care if it is yesterday's or a month 
ago.
    Mr. Wheeler. These were set down in 2015.
    Mr. Walden. Right. What was the dollar amount in that?
    Mr. Wheeler. $51 million was our fine.
    Mr. Walden. Do you think that is an insignificant number?
    Mr. Wheeler. No, I am sorry, that was our fine. There were 
37,000 individuals----
    Mr. Eshoo. And that was the private sector ripping off the 
public sector, and the FCC went after them.
    Mr. Walden. And what is what we are all talking about doing 
more of.
    Mr. Wheeler. The root of the problem goes back to the fact 
that the program was designed at the outset to be one where the 
fox was guarding the hen house. What the original FCC proposal 
plan was that we have been playing Whac-a-Mole with for the 
last 8 years----
    Mr. Shimkus. Mr. Chairman, I would ask for regular order 
and getting back to the schedule.
    Mr. Wheeler. It was to how do we deal with this reality and 
the design was bad. It is an important program, poorly 
designed. And we have been playing catch-up ball, and in our 
recent order we put a national verifier in place.
    Mr. Walden. I am going----
    Mr. Wheeler. Which changes the game entirely.
    Mr. Walden. And as you know, I have said publicly, you all 
have been cleaning it up. The notion that all of the kinks are 
out of the system, I think it would be hard to defend.
    We will now go to----
    Mr. Eshoo. I yield back.
    [Laughter.]
    Mr. Walden. We will now go to the vice chair of the full 
committee, Ms. Blackburn.
    Mrs. Blackburn. And I will promptly change the topic. 
Chairman Wheeler, let us go to the E-rate funds. I have talked 
to you about the Sweetwater Consortium.
    Mr. Wheeler. Yes, ma'am.
    Mrs. Blackburn. And we brought it up at the last hearing. 
That is a group of 46 schools in Tennessee. They serve hundreds 
of thousands, a third of the school children in our State. And 
they have been denied $60 million in funding for 4 years and in 
your response you submitted after the last hearing, you state 
the Consortium's appeal was filed on May 9th. It is currently 
pending with the Wireline Bureau. What is the status update?
    Mr. Wheeler. So thank you, Congresswoman. I mean it is not 
unrelated to the discussion we just had because it is how do 
you follow the rules to make sure that waste, fraud, and abuse 
is mitigated? And one of the rules in the E-rate Program should 
be competitive bidding. And in the Sweetwater example there was 
no competitive bidding. Therefore, it was not in accord with 
the structure of the rules put in place to try to mitigate 
exactly the kind of thing the chairman has been talking about. 
That is now currently on appeal before the Bureau.
    Mrs. Blackburn. And when do we expect a resolution?
    Mr. Wheeler. I don't know the answer to that.
    Mrs. Blackburn. OK, well, let me move on to set-top box 
because as I mentioned earlier, this is something of great 
concern and I am going to channel John Dingell for a few 
minutes. We just have his 90th birthday in this room, so I want 
all of you to think very concisely and give me a yes or a no. I 
know I do need the luck. Mr. Barton is right.
    OK, question number one. Do you agree that the initial FCC 
set-top proposal is flawed?
    Mr. Chairman, I will start with you. Let us go quickly down 
the line. The clock is ticking.
    Mr. Wheeler. Everything is designed to seek improvement.
    Mrs. Blackburn. I said yes or no. OK, OK. Ms. Clyburn?
    Ms. Clyburn. Yes or no.
    Mrs. Blackburn. Which one do you want, pick one? You are 
saying both. OK.
    Ms. Rosenworcel. I will make it easy, yes.
    Mrs. Blackburn. OK.
    Mr. Pai. Yes.
    Mr. O'Rielly. Yes.
    Mrs. Blackburn. All right, question two, do you agree that 
if the FCC is to move forward, it should follow a different 
approach than outlined in the NPRM?
    Mr. Wheeler. That is what we are trying to do right now.
    Mrs. Blackburn. OK.
    Mr. Wheeler. We are working with the industry.
    Mrs. Blackburn. OK.
    Ms. Clyburn. Yes.
    Ms. Rosenworcel. Yes.
    Mr. O'Rielly. Yes.
    Mrs. Blackburn. I like this. Do you agree that the pay TV 
provider alternative shows some promise.
    Mr. Wheeler. One page is not a proposal. It is a press 
release.
    Mrs. Blackburn. Does it show promise?
    Mr. Wheeler. Oh, does it show promise?
    Mrs. Blackburn. Yes.
    Mr. Wheeler. Yes, the great thing is that it lowered the 
temperature so we can talk together. Yes, it shows promise.
    Mrs. Blackburn. OK.
    Ms. Clyburn. Yes.
    Ms. Rosenworcel. Needs work, but yes.
    Mr. Pai. Yes.
    Mr. O'Rielly. Yes.
    Mrs. Blackburn. You all are doing really well on this. OK, 
I met with the Copyright Office yesterday and they have got 
some concerns about this proposal. So do you agree that no 
matter what the FCC does, it must not diminish copyright law, 
jeopardize the security of content, or undermine the license 
and advertising models that finance programming in the first 
place?
    Mr. Wheeler. Copyright protection and the protection of 
contracts which exceed the authority of the Copyright Office 
are essential and must be an essential part.
    Mrs. Blackburn. So I take that as a yes.
    Mr. Wheeler. They must be an essential part.
    Ms. Clyburn. Copyright security and privacy must be in 
place.
    Ms. Rosenworcel. Yes.
    Mr. Pai. Yes.
    Mr. O'Rielly. Yes.
    Mrs. Blackburn. OK, would you agree that the original set-
top box proposal effectively renders content worthless?
    Mr. Wheeler. No.
    Ms. Clyburn. No.
    Ms. Rosenworcel. My office has met with the Copyright 
Office and I know that the Copyright Office has expressed 
concern about just what you describe, so I think that more work 
is necessary on our part.
    Mrs. Blackburn. Commissioner Pai?
    Mr. Pai. Yes, I agree with Commission Rosenworcel.
    Mrs. Blackburn. OK.
    Mr. O'Rielly. Yes.
    Mrs. Blackburn. OK, thank you all for that. You have left 
me 30 seconds to wrap up so I am grateful for that.
    I will tell you this. Meeting with content producers and 
the independents that are there in Tennessee, individuals that 
have the ability and have been creating a lot of cable TV 
programming, things of this nature, what they find and Mr. 
Chairman, going back to what you said, if this original 
proposal, the set-top box proposal got out there, they would be 
paid for the first round, but basically, the ability to go in 
and to negotiate those licenses is something they feel would be 
stripped from them. And they think not only does it have 
domestic, it also has international implications because of the 
ability to hack in and grab that digital file and then to 
utilize it.
    I think that you have got a long way to go on set-top boxes 
and I am pleased to hear that you are willing to work on that. 
I yield back.
    Mr. Walden. Thank you. The gentlelady yields back. The 
chair recognizes for a point of personal privilege, the 
gentlelady from California.
    Mr. Eshoo. Thank you, Mr. Chairman. I meant to do this at 
the beginning of the hearing. Former chairman of our full 
committee is with us today in the hearing room and I want to 
acknowledge his presence, former congressman and chairman of 
the full Energy and Commerce Committee, Billy Tauzin. Welcome.
    [Applause.]
    Mr. Walden. Thank you. The gentlelady yields back. The 
chair now recognizes the gentleman, the ranking member of the 
full committee, the gentleman from New Jersey for 5 minutes.
    Mr. Pallone. Thank you, Mr. Chairman. It is good to see 
Chairman Tauzin here as well.
    Chairman Wheeler, I am trying to get your commitment to 
three things, so I am trying to move quickly here to cover all 
three.
    The first is about the set-top box. I have seen encouraging 
reports from the press that you have been negotiating with 
stakeholders on a compromise proposal in the set-top box 
proceeding. I urge you to work swiftly toward a resolution that 
will benefit consumers. For me, that resolution must include 
adequate protections for content. Consumers will not care how 
their TVs work if they can no longer get their favorite 
content.
    So my question, can you commit to me that before you vote 
on final rules that you will work with the Copyright Office as 
well as other copyright experts inside and outside the 
Government to make sure your plan will not run afoul of 
intellectual property laws?
    Mr. Wheeler. I can go beyond that, Mr. Pallone, to say we 
will work with the copyright holders as well because the 
Copyright Office has only a limited area of jurisdiction and 
there are a lot of issues such as contracts and things like 
this that are important to the copyright holders.
    Mr. Pallone. Thank you, Mr. Chairman. Next is about the 
Lifeline Program. You heard during my opening statement today 
that Democratic committee staff issued an interim report 
concluding that evidence does not support Republican 
allegations of $500 million of waste, fraud, and abuse in the 
FCC's Lifeline Program. And the report also includes several 
recommendations for the FCC. And these recommendations include 
first having the FCC periodically review the Lifeline Program 
data for new trends; second, preventing the use of fraudulent 
snap cards as verification for Lifeline subscribers; third, 
making sure the independent economic household worksheet is not 
being abused; and lastly, studying whether safeguards that have 
been implemented in some States can improve the program at a 
national level.
    And again, it may be difficult to say yes outright, but I 
just would like you, if possible, to follow these 
recommendations to help prevent fraud from the Lifeline 
Program, if you could comment on that.
    Mr. Wheeler. Thank you, Congressman. I haven't seen the 
report.
    Mr. Pallone. I know you haven't.
    Mr. Wheeler. Those sound like very logical recommendations 
that ought to be pursued.
    Mr. Pallone. All right, thanks again. We are going quickly 
here. And then lastly, on the SANDy Act, a few months ago, I 
was proud to announce that the Nation's wireless carriers were 
committing to voluntarily comply with the wireless portions of 
my bill called the SANDy Act. And I wanted to thank you for 
working with me to make sure that the carriers are making the 
networks more accessible during emergencies. But because this 
wireless resiliency agreement is just voluntary, ongoing 
oversight is critical. So with that in mind, could you update 
us on the implementation of the wireless network resiliency 
cooperative framework and how the FCC is making sure that 
carriers live up to their commitments?
    You have 2 minutes left, so take your time.
    Mr. Wheeler. Thank you, Congressman. The industry has done 
an excellent job after your leadership pushing this issue. And 
industry should be commended for stepping up like this. As you 
say, our job in this environment now is to be the watchdog, to 
check on the process.
    The first step in this activity had to do with the upcoming 
hurricane season. And what is the industry doing to prepare for 
something that we know is coming and has been the source of so 
many difficulties in your district and elsewhere up and down 
the East Coast in particular.
    And so the industry has been working on that, and later 
this month--I can't give you the specific date, but it is in 
the next couple of weeks--our Public Safety Bureau, who has 
responsibility for us, is sitting down with the industry to 
review the things that they have put in place and to make sure 
that indeed that is stepping up to the commitment that they 
made to you and to us as a result of your leadership on this 
issue.
    Mr. Pallone. All right. Thank you so much. I appreciate it. 
And I yield back, Mr. Chairman.
    Mr. Latta [presiding]. Thank you very much. The gentleman 
yields back and the chair now recognizes for 5 minutes the 
gentleman from Texas the chairman emeritus of the full 
committee.
    Mr. Barton. Thank you, Mr. Chairman. And we have given 
Chairman Tauzin the big head. He is out there grinning like a 
Cheshire Cat as he got introduced by Anna. We will have to make 
sure we put him back in his place and find out who is clients 
are and see if we can't do him some harm or something.
    [Laughter.]
    Mr. Wheeler. Mr. Barton, could I just make one observation? 
Looking at that picture up there and the chairman sitting here 
in the audience. One is a lot younger than the other.
    Mr. Barton. Actually, he looks pretty good.
    Mr. Wheeler. But I would not want to make that observation 
about another portrait.
    Mr. Barton. Exactly.
    Mr. Wheeler. Because that would be wrong.
    Mr. Barton. I look nothing like that.
    [Laughter.]
    Mr. Barton. It is probably why Chairman Upton hadn't put 
his portrait up yet. Anyway, it is good to see Billy.
    I am going to have to do something I almost never do and 
that is in a hearing like this bring up a constituent issue, 
but it is the only way I know to maybe get some action.
    Mansfield Independence School District is one of the best 
public school districts in my congressional district. It is a 
community of about 80,000 in the suburbs of Dallas-Fort worth. 
Several years ago, they got $1 million from the Universal 
Service Administrative Company to do some Internet access for 
their low-income classrooms. They received $1 million over 
three funding cycles.
    They applied for another $820,000. That application was 
denied and at the same time USAC said oh, by the way, that $1 
million we have already given you, you have got to give it 
back. They have been trying for the last 2 years to resolve 
this issue without success. My district office has sent several 
letters to try to help resolve the issue without success. Their 
last appeal was cursorily denied without any explanation.
    So Mr. Chairman, I am asking you if you would ask your 
staff to do something unusual which was to take a personal look 
at this and see if we can't resolve it. I don't personally have 
a problem that their request for additional funding was denied. 
I understand how tight those funds are. But I have got a real 
problem if they agreed to fund it. They gave them the $1 
million over three cycles and then asked for it back. Can you 
look into that?
    Mr. Wheeler. Yes, sir, Mr. Barton.
    Mr. Barton. OK, I appreciate that. Now my policy question, 
I am the co-chairman of the Privacy Caucus and I am way back 
when one of the people that helped put into place what we now 
call Caller ID. Under the proposed rulemaking have to--instead 
of certain information being automatically included and then 
you can opt out of that information being used, you are going 
to go to an opt-in procedure where consumers have to opt-in to 
certain information. If you do that, in all probability, a lot 
of consumers will not opt-in. And if they don't, you make it 
almost impossible for Caller ID, as we know it today, to be 
utilized.
    Can you all, all the Commission take a look at that? I know 
we are trying to protect privacy, but my premise is if somebody 
is calling me, I should have the right to know who is calling 
me and I make the decision whether I take that phone call. That 
means that you have to have the phone number and in most cases 
some sort of a personal identifier, Congressman Billy Tauzin is 
calling Joe Barton or vice versa. If you don't have that basic 
information, you really don't give people that are receiving 
the call the opportunity to decide whether they want to take 
the call.
    Mr. Wheeler. Thank you, Mr. Barton. I think you raise a 
very good point. What our privacy rules are directed at, that 
is poor English, what we are trying to get to in the privacy 
rules is the broadband area. You are talking about a telephony 
item. We are talking about how you have some consistency back 
and forth between the two, but we are not trying to rewrite 
what is going on in the telephony world. But I will 
definitely--it is on board, sir.
    Mr. Barton. I appreciate the Commission, all the other 
Commissioners, taking a look at that.
    I yield back, Mr. Chairman.
    Mr. Latta. Thank you. The gentleman yields back and the 
Chair now recognizes for 5 minutes the gentleman from 
Pennsylvania.
    Mr. Doyle. Thank you, Mr. Chairman. Chairman Wheeler, I 
want to thank you for your leadership on business data services 
or special access. I think I have really been working on it 8 
years. It just feels like a decade. This issue has been pending 
before the Commission too long and I appreciate your leadership 
on it. But I just want to give you a minute to just tell us why 
completing the proceeding is so important and what is online 
for the American consumer?
    Mr. Wheeler. Well, you know, it is really interesting, 
Congressman. Back in the day when I was president of CTIA, I 
remember being at board meetings and the wireless carriers 
coming in and saying 30 percent of my operating cost is what I 
am paying for backhaul because I am dealing with an area that 
has been totally unregulated and can't you do something about 
that?
    And then the principal providers of this backhaul services, 
also wireless carriers, would raise their hand and say, ``Uh, 
no, we can't go there, we can't go there.'' So this has been an 
issue that I have been dealing with for probably as long as you 
have been dealing with as well.
    The reason I tell that story is because wired 
infrastructure is essential for wireless. And it will become 
even more essential in 5G because 5G is a multiple of much 
smaller cells that all have to be connected.
    And so what we are talking about here, yes, we are talking 
about competitive services, but yes, we are also talking about 
if we are going to have this national priority and we are going 
to be the world leaders in 5G, you have got to be able to 
connect it and you have got to be able to connect them at 
reasonable rates. That is why this is an important proceeding.
    Mr. Doyle. Thank you. Commissioner Clyburn, as you had 
noted, the two of us wrote a joint op-ed on below the lines 
fees. We have seen these fees skyrocket across the 
telecommunication marketplace in recent years and we know what 
they cost consumers. Tell me, what tools does the FCC have to 
address the proliferation of this practice?
    Ms. Clyburn. I was pleased to bring this to the attention 
of those who already know it. One of the things I am pleased 
about with the attention that we got with the op-ed is the fact 
that our advisory committee is actually taking this up, is 
moving ahead because surprises again--that is the type of 
surprise that you do not want when you sign up for services.
    So when you talk about people, especially with individuals 
who are on fixed income, it is really important what they sign 
up for, the financial expectations they have are realized and 
as I said, I am pleased to let you know that we are going to 
follow up with this to ensure that the information flow that is 
at the type of transparency needed for this will get more 
attention and more traction in the days to come.
    Mr. Doyle. Thank you. Commissioner Wheeler, I want to go 
back and talk a little bit about zero rating and the fear that 
a lot of us have that this has the potential to have some anti-
competitive effects on the marketplace.
    Studies have shown that users overwhelming prefer apps and 
services that are zero rated and I believe that if these 
services aren't properly policed, it could have the same effect 
as paid privatization or anti-competitive interconnection and a 
range of other behaviors that are restricted in the Open 
Internet Order.
    So what steps is the Commission taking to examine these 
offerings and ensure that they are not harming consumers?
    Mr. Wheeler. Thanks, Congressman. You know, we took a long 
and hard look at the zero rating question during the Open 
Internet proceeding and decided that a case-by-case approach 
was better than a broad-brush approach. The question really 
boils down to what is the impact on consumers? What is the 
impact on competition? And what is the impact on innovation?
    And if you can have positive checkmarks in that, but it is 
zero rating, then you shouldn't catch it in some kind of 
blanket. But you also want to have the ability to go through 
and say no, that is not pro-consumer, that is not pro-
competition, that is not pro-innovation.
    So what we have been doing is gathering information about 
the various zero rating items that are out there, as well as 
various proposals, to try and be able to put together the kind 
of analysis that helps you answer that kind of question and 
that is what we are in the process of doing right now.
    Mr. Doyle. Thank you. And I would just close by saying with 
regards to Lifeline, is there no fraud in the program? Of 
course, we know there is no fraud. Is the fraud as prolific as 
Commissioner Pai suggests? We know that is not true either.
    The danger with the kind of information, Commissioner Pai, 
that you stated is that somehow the potential for fraud somehow 
gets translated in the newspapers as actual fraud and the 
public believes that this number is this big and we know the 
number isn't zero. It is somewhere in between this big and 
zero. And I just think we all need to be responsible when we 
throw out numbers that we don't lead taxpayers to believe that 
there is this massive type of fraud going on. And I would end 
by saying that the fraud is being committed by companies, not 
the poor, and I think that should be emphasized, too. Thank 
you, I yield back.
    Mr. Latta. The gentleman's time has expired. And the Chair 
now recognizes himself for 5 minutes. First, if I could ask 
you, Commissioner Pai, and then follow up with you, 
Commissioner O'Rielly, two of the FCC's major rulemakings this 
year seem to be at odds with each other. On the one hand, the 
FCC has proposed rules with very prescriptive broadband privacy 
regulations and on the other hand, consumers' privacy and 
viewing data is left completely exposed in a highly 
controversial set-top box proceeding.
    Has the majority of staff of the Commission ever discussed 
this with you?
    Mr. Pai. No, Congressman.
    Mr. O'Rielly. The contradiction between the act--no.
    Mr. Latta. So that is a no. OK. Thank you. Commissioner 
O'Rielly, let me go on. I have been very active with the 
Internet of things here in committee with some other members 
and what will the spectrum frontiers order in the development 
of the 5G mean for the Internet of things?
    Mr. O'Rielly. So if the chairman alluded to what activity 
we are going to take, I want to be careful on getting too much 
into this, but the opportunities of what it can bring and the 
connectivity for expanding the universe to the Internet of 
things, the billions and billions of devices and applications 
that will be made available, be connected with our high-band 
spectrum is going to be monumental for decades to come, 
assuming that we get our rules right.
    Mr. Latta. Even what you said at the very end, what I have 
been hearing during these discussions, you just said the words 
``if we get our rules right.'' What I have been hearing from 
everyone that we have been having in is that the one thing that 
they worry about is on the legislative and the regulatory side 
making sure that they pretty much all of a sudden might be shut 
down from getting these things done out there.
    And so when you say getting them done right, how would you 
foresee in the future of getting things done right at the 
Commission?
    Mr. O'Rielly. Well, I am in negotiations with the chairman 
and his team to try and finesse some of the points that are in 
the item. I like the general direction of where it is going, 
but we have to make sure that the licensing structure to make 
sure that the bands are available in a way that carriers are 
apt to use them. We want to make sure that it coincides with 
what the applications and the industry and the manufacturing 
world plan to use them as well. So we are trying to finesse 
some of those finer points.
    Mr. Latta. Thank you very much. Commissioner Pai, with my 
remaining time, one of my concerns of the FCC's set-top box 
proposal is the disproportionate impact it would have on small 
companies. The costs to comply could result taking funds away 
from other initiatives and services that benefit consumers.
    As someone that represents--and you have been out to my 
distract and thank you very much. My district goes from very, 
very rural to urban. This is a great concern of mine because 
small, paid TV companies typically provide communications 
services to the rural areas. As the Commission considers 
alternative approaches to their proposal, how are you seeking 
to balance the cost and benefits for the small operators and 
their customers?
    Mr. Pai. That is a great question, Congressman. It was a 
privilege to have met with the small cable companies and other 
small video providers in your district and around the country. 
The concern they generally express about the FCC is that the 
burden of regulations falls disproportionately on them since 
they don't have the scale to comply. I think in the set-top box 
proceeding that the concern has been brought home by the fact 
that 61 Representatives, 10 Senators have expressed bipartisan 
concern that this cost and benefit analysis has not been done 
generally, and it especially has not been done with respect to 
small businesses. And so that is a concern I take very 
seriously and I hope the Commission does as well.
    Mr. Latta. Well, thank you very much and I am going to 
yield back the balance of my time and recognize the gentleman 
from Vermont who also co-chaired the Rural Caucus here on the 
Energy and Commerce Committee for 5 minutes.
    Mr. Welch. Thank you very much, Mr. Chairman. I welcome the 
FCC Commissioners. We really appreciate the work that you do. 
First, I just note that the DC Court of Appeals supported in 
its entirety the net neutrality rule. That was very debated and 
very contentious, but it is resolved legally, at least at that 
stage. And I hope that that means that we will be able to focus 
on some of the other efforts that require some bipartisan 
cooperation like the homework gap in like the deployment of 5G.
    I want to ask some questions about three areas, the 
homework gap, the special access, and 5G. And I will start with 
the homework gap.
    Commissioner Rosenworcel, thank you for your aggressive 
leadership on this. It really makes a difference in Vermont and 
a lot of our rural areas. Actually, urban areas as well. About 
70 percent of teachers, as you know, according to the FCC's 
statistics, assign homework that requires Internet access, but 
only about 33 percent of households are really able to take 
advantage of that.
    Representative McKinley and I have a bill that I think can 
help a bit on this. And I am going to be introducing another 
bill on that as well, that would require the FCC to issue new 
rules that would ensure providers of mobile broadband Internet 
that participate in the Lifeline Program to offer subscribers 
mobile devices that are Wi-Fi capable. Do you have a view on 
this bill and how it could help the homework gap?
    Ms. Rosenworcel. Well, thank you, Congressman Welch, and I 
appreciate your leadership on this subject, too, with the 
Digital Learning Equity Act. As you mentioned, seven in ten 
teachers assign homework that requires Internet access and one 
in three households does not have access. And where that 
overlaps is a homework gap and it is the cruelest part of the 
digital divide. Anything we can do to help fill that gap is 
going to help students and the tethering you describe is ideal 
and could be really useful.
    Mr. Welch. Thank you. And Chairman Wheeler, I want to ask 
you a little bit of follow up on what Congressman Doyle asked 
you about special access. This is going to be a big deal, 
obviously, for all of America, but we are going to have a 
challenge in rural America as well with the cost of 
infrastructure being what it is.
    Can we have some assurance that the rules that will be 
promulgated will take into account the extraordinary challenges 
that have existed in rural America about having access to the 
infrastructure that is essential for it to have the Internet?
    Mr. Wheeler. Thank you, Mr. Welch. Yes, and as you know, 
the programs that we have for addressing that issue in rural 
America are extensive, and we should not be coming out with a 
rule that unfairly targets. There is the reality that there 
needs to be a competitive environment, and you have to be 
dealing with how do you incentivize that competition.
    Mr. Welch. Thank you. And Mr. Pai, I will ask you, too. On 
5G, again, it is sort of similar to what I was just talking to 
Chairman Wheeler about. It is a different infrastructure. You 
are not going to have as many of the pipes and wires, but there 
continue to be challenges in rural America. And at the very 
beginning of establishing rules that are going to be absolutely 
essential to the build out of 5G, there has to be integrated 
into it the challenges in rural, hilly America, whether it is 
Appalachia with Mr. McKinley or rural Vermont for me.
    And can you comment on what steps can be taken in order to 
treat rural America as the first-class citizen?
    Mr. Pai. Thanks for the question, Congressman. I take this 
seriously, both as a Commissioner and also as a rural American 
myself, having grown up in a small town in Kansas. I think 
increasingly what we are seeing is a digital divide where 
people in the bigger cities can take as granted that they will 
have fiber and other advantaged technologies that allow them to 
have high-speed connectivity.
    In rural areas, like ours, it might be a copper line that 
has faded over time. And how do we promote the deployment of 
fiber in rural areas where you can't necessarily have a 
business case? That is the $64,000 question.
    We have part to play in that with our Universal Service 
Fund, and so I pushed, for example, for a support for stand-
alone broadband to make sure that that fiber was available. I 
think it is also the IP transition is critical for us to give 
the private sector the maximum incentive to connect every 
American, rural Americans, tribal Americans, and others with 
that fiber and I think additionally, we always need to be 
forward thinking. If there are other regulations that some of 
the smaller competitors tell us about that are standing in the 
way, we need to have an open mind.
    I have met with some small providers, in some cases one and 
two-man shops, who have told us look, your rules in this case 
or that case are holding us back. We are not a big company, 
help us out. I think that could go a long way.
    Mr. Welch. Thank you. I yield back. Thank you, all.
    Mr. Lance [presiding]. Thank you very much. The chair 
recognizes Mr. Shimkus.
    Mr. Shimkus. Thank you, Mr. Chairman. Welcome, 
Commissioners, it is great to see you all.
    Sometimes we quibble too much. I am getting a little 
frustrated today. We are picking at each other for things that 
there is a lot of agreement. I think there are people we know, 
we need a Universal Service Fund. The question is how it is 
going to be properly deployed. Should it go into broadband now? 
Do we need to clean up the abuse in Lifeline? The answer is 
yes. We all know that. So these levels, again, I get 
frustrated.
    I think the set-top box thing that was raised, I think you 
raised a question, opened it up. I think there has been 
response and I think there is a consensus growing that we 
should move to an app-driven world.
    I think the last time we met, I think people use that now, 
and I hope that we just get some of these what are perceived to 
be very contentious issues away from us so we can address other 
things.
    911, as was mentioned, we did pass a mandate on grants, 
prohibition on grants if the States were stealing 911 dollars. 
We could do that.
    So there are more things that unite us than divide us. That 
is all I am going to say.
    But I do want to address, this might be your last time 
here. I mean, the chairman said maybe not. It could be. I have 
been really focusing on what is the FCC for the future. And I 
ascribe to a lot of the debate that it is a time for a rewrite 
of the Telecommunications Act for a lot of reasons. If you pull 
up the Web site we have a Consumer and Government Affairs 
Bureau. We have an Enforcement Bureau, an International Bureau, 
Media Bureau, Public Safety and Homeland Security, Wireless and 
Telecommunication, Line Competition, those are bureaus. Under 
the bureaus like the Wireline Competition Bureau we have a 
bureau chief, three deputy chiefs, one chief of staff, a data 
officer, economist, three associates bureau chiefs one program 
manager of the USF, two--I mean you have got an army over 
there.
    So the first question is, and it is great to have Chairman 
Tauzin here because in the telecom rewrite which I wasn't a 
member yet, but I have been here 20 years, what was the 
Wireline Competition Bureau, what was it designed to do after 
the rewrite of the '96 Act, Chairman Wheeler?
    Mr. Wheeler. Thank you, Mr. Shimkus. As you all sit here, I 
would like to identify myself with your remarks about how--yes, 
we do--it is interesting. But 91 percent of our decisions are 
unanimous.
    The Wireline Competition Bureau was created after the Act, 
because the Act required several specific actions by the 
Commission to make decisions----
    Mr. Shimkus. OK, fast forward today. What does it do today?
    Mr. Wheeler. It oversees activities in the wireline world. 
So for instance, what we are dealing with on Thursday which is 
the move from analog to IP and what are the expectations there 
when service is discontinued is something that comes out of the 
Wireline Bureau.
    Mr. Shimkus. My point is I think that when we had part of 
the questions and answers, you talked about telephony and 
broadband. They are merged. We have a lot of stuff, a lot of 
telephony goes over broadband and we still have some stovepipe 
administration programs and procedures.
    Mr. Wheeler. They are merging. And yes, we have----
    Mr. Shimkus. Well, there is a nexus and definitely the 
nexus isn't in the way they were designed. I would challenge 
you to start looking at the FCC 2.0 or 3.0 or the future 
because we are just--we are not there.
    On the Web site, the wireless--just simple things. When you 
look at the organizational charts, you are not standard. 
Everybody has got their own little, how they portray their 
organizational structure. There is like two that have different 
formats. Three that are the same. And the Wireless Competition 
Web site comes up page not found.
    Mr. Wheeler. I am sorry, what?
    Mr. Shimkus. Page not found.
    Mr. Wheeler. It does?
    Mr. Shimkus. Yes. Just for your information.
    Mr. Wheeler. Thank you.
    Mr. Shimkus. So I would really hope and my time is running 
out. Chairman Wheeler, you have kind of pushed, and I will ask 
Commissioner O'Rielly to weigh in, too, because he has 
mentioned this, that there is a reason that you have procedures 
in place and that they are working, but you also form multiple 
task forces to look at FCC processes.
    Can you comment on what you found out and then Commissioner 
O'Rielly can you respond to these task forces?
    Mr. Wheeler. So we have been working through a process. 
Your time has run out.
    Mr. Shimkus. This would be the first time that you have 
ever said time has run out.
    [Laughter]
    Mr. Shimkus. I wonder why that is.
    Mr. Wheeler. You said this may be my last chance, Mr. 
Shimkus, so I don't want to miss that. But Commissioner 
O'Rielly earlier this week had an excellent blog on process 
reform in which he identified 24 specific issues. So I will let 
Commissioner O'Rielly respond to that.
    Mr. O'Rielly. I appreciate the chairman's kind words. The 
difficulty has been that on process reform the task force that 
we set up was intended to look at some of the ideas that I had 
already previously talked about and the offices all assigned 
somebody and they have gone round and round and round for 
months on end and we have gotten absolutely nowhere. So that is 
why I put up the bar to kind of show where we are at the 
moment. We are nowhere.
    The chairman says that a lot of these are good ideas, but 
we can't get any of them to move forward and these are not the 
biggest ticket items. The biggest ticket item I know he doesn't 
agree with. He said he would do it over his dead body and I was 
willing to take him at his word.
    [laughter]
    But that being said, there are things that can make our 
organization work better and we will have improved 
collegiality.
    Mr. Shimkus. And I would just, reclaiming my time, and I 
know I am--I would just hope that in our last cycle here, we 
start talking about how we can make it all work better and move 
forward, not backwards. And I yield back my time.
    Mr. Lance. Thank you and for the first time as chair, time 
has run out. Ms. Clarke, you are recognized.
    Ms. Clarke. Thank you so much, Mr. Chairman, and I thank 
our ranking member.
    Chairman Wheeler, it appears that some progress is being 
made on the set-top box issue and I want to applaud your 
efforts to solicit and consider alternate proposals from 
industry. However, I believe that for the Commission to 
continue down this path, based upon the telecom law of 20 years 
ago with regard to the technology hardware that is set-top box 
is quickly becoming obsolete. It is, in fact, a fool's errand. 
I hope that this debate, however, has been useful in unearthing 
the complexity and layers of issues that intersect and so 
profoundly impact on consumers and the industry that are 
impacted by creating this new ecosystem.
    I hope that the rulemaking will be done in a way that we 
can look to a 21st century model. And as you know, the GAO has 
approved my request for an impact study. Clearly, my preference 
would be that no action is taken prior to the GAO study, 
following your own advice to trust and verify.
    However, if there remains an insistence on moving ahead, I 
would like to have your assurances that you will work with me 
to ensure that the findings of the proposal's impact on multi-
cultural media will be integrated into any file rulemaking.
    Mr. Wheeler. Thank you, Ms. Clarke. You and I have talked 
about this repeatedly and you know that I do feel strongly 
about the importance of making sure that the Commission step up 
its role to make sure that we do create opportunity to multi-
cultural media.
    Ms. Clarke. Absolutely, but my question was----
    Mr. Wheeler. Would I work with you? Yes, ma'am.
    Ms. Clarke. And when the GAO study findings come out that 
we will review them together and see how they can be 
incorporated into a final rule.
    Mr. Wheeler. And I hope that what we are doing is in the 
process right now building a record.
    Ms. Clarke. I hope so, too. But I am talking about the GAO 
study. I am very specific about what I am looking at.
    Mr. Wheeler. Yes.
    Ms. Clarke. OK, very well. Thank you. On June 27th, you 
circulated a fact sheet describing an item provided in response 
to the Third Circuit's remand in the wake of the Prometheus 
decision. Five minority ownership proposals suggested by MMTC 
were excluded, including the extension of the MVPD procurement 
rule to all communications platforms, a rule introduced in 
advance by my colleague, Congressman Rush.
    Would you be willing to commit to the extension of this 
rule across all platforms recognizing industry convergence? I 
think this is one of the things that has become self-evident 
through this process.
    Mr. Wheeler. There is a real challenge that we face under 
the Supreme Court's strict scrutiny standard.
    Ms. Clarke. I am clear on that.
    Mr. Wheeler. And the ability to get through that standard 
becomes a threshold to all of this. If there is a way that you 
think that that could be done, I am interested.
    Ms. Clarke. Let us talk about that. Chairman Lance, I would 
like unanimous consent to submit a letter for the record signed 
by myself, Congressman Rush, and Congressman Butterfield to 
Chairman Wheeler requesting the extension of the MVPD 
procurement rule to all FCC-regulated entities.
    Mr. Lance. Without objection.
    Ms. Clarke. Thank you. Finally, Mr. Chairman, you have 
noted that the media and telecom ecosystems are converging 
rapidly. Leading the way in this convergence is advertising 
whose messages cut across media platforms from AM radio to 
wireless apps to everything in between.
    When the FCC banned discrimination in ad placement in 2008, 
the agency recognized how critical advertising is in 
facilitating the diversity of voices and ownership. Under the 
current statutory authority, it appears that the Commission can 
ask the industries it regulates for information on the use of 
minority-owned advertising agencies and their current status 
with minority-owned media ad placement.
    Would you be willing to make such an information request of 
both the agencies you regulate and edge providers to provide 
the results to members of this subcommittee within 90 days of 
today's hearing?
    Mr. Wheeler. Thank you, Congresswoman. I am not familiar 
with the specifics, so a blanket yes ma'am, but I would like to 
learn more and see what can be done.
    Ms. Clarke. Very well. Chairman Wheeler, I will also be 
submitting to the record follow-up questions regarding the 
Commission's movement on secondary market transactions for 
minority owners. Having said that, Mr. Chairman, thank you.
    Mr. Lance. Thank you very much, Congresswoman. I will 
recognize myself for 5 minutes.
    I am pleased to see that we are discussing 5G technology. 
Just yesterday, Verizon Wireless in the district I serve in 
Basking Ridge, New Jersey, announced that it had completed its 
5G radio specification, the first U.S. carrier to do so and I 
look forward to working with all of the members of the 
Commission and the members of this committee on this issue.
    For Commissioner Pai, with all of the convergence going on 
in the communications industry and the Internet ecosystem, 
policy makers strive to make laws and regulations that are 
technology neutral so as not to disadvantage one company over 
another in the marketplace because competition among firms on a 
level playing field is, in my judgment, beneficial to all 
consumers.
    If the FCC applies a certain set of rules to ISPs that 
differ significantly from the rules that apply to other 
participants in the Internet ecosystem, would that be 
considered technology neutral?
    Mr. Pai. Congressman, I do not believe it would be 
considered technology neutral.
    Mr. Lance. And do you believe that this is a possibility 
moving forward?
    Mr. Pai. It is not only a possibility, the FCC itself 
recognized that in paragraph 130 of the privacy NPRM.
    Mr. Lance. Thank you. Commissioner O'Rielly, would you like 
to comment on that, please?
    Mr. O'Rielly. I agree, I don't believe it is technology 
neutral and I think that is the path we are headed for.
    Mr. Lance. Thank you. For Commissioner Pai as well, and 
also Commissioner O'Rielly, one of the foremost concerns of 
consumers today are Caller ID spoofing calls and I have worked 
on this issue, scammers using IP-based technology to spoof the 
phone number, the name and pose as a legitimate financial 
institution or law enforcement agency to scam consumers and 
Congressman Barton raised this as well.
    It is my understanding that there is an effort underway 
among service providers and third parties with directory 
listing information to develop a protocol to verify the Caller 
ID information before sending the call to consumers. This 
protocol relies on the sharing of data. Under the FCC's 
proposal if we move to an opt-in consent regimen, there are 
concerns that this effort could be undermined. Would you please 
comment, Commissioner Pai?
    Mr. Pai. Thanks for your question, Congressman. I think 
this highlights part of the problem. One of the unintended 
consequences of the FCC's intended approach by diverging from 
what the Federal Trade Commission previously had done apply 
more of a consumer-based approach, the FCC has highly 
prescriptive regulations that would single out certain players 
in the echo system for disparate regulation. I think one of the 
harms could be to consumers in that regard. And that is part of 
the reason why the FTC staff itself recently commented to the 
FCC that this two track privacy scheme that is in development 
is something that is not going to benefit consumers in the long 
run.
    Mr. Lance. Commissioner O'Rielly?
    Mr. O'Rielly. I would agree. I think the unintended 
consequence that you highlighted gets to the point of the rush 
to judgment. We are trying to move this expeditiously to finish 
by the end of this term, the end of this year. This is a very 
sensitive topic. It is a very complicated topic and it should 
be done on a timeline such as that.
    Mr. Lance. Thank you. There are constituents of mine as 
well as just about everyone here on the dais and we have 
petitions pending at the FCC. However, we know that in some 
cases petitioners can wait years before having a resolution. 
Former Chairman Emeritus Barton discussed this. This is also 
true of constituents of mine.
    What more can be done to clear pending petitions so 
individuals and businesses who have business before the FCC can 
have certainty as to what is occurring?
    Commissioner Pai?
    Mr. Pai. Thanks for the question, Congressman. My very 
first speech as a Commissioner, I targeted this as an area of 
good Government reform. I think the public expects and deserves 
to be given an answer. Tell me yes, tell me no, but just tell 
me something.
    One thing we can do that I teed up 4 years ago was apply 
Section 7 more vigorously which requires the FCC to rule on 
applications for new products and services within a year. It is 
essentially a dead letter for many years at the FCC. We should 
impose more deadlines on ourself and I think we should also 
impose more sunset clauses so that regulations don't persist 
well past their due date. They have to be revisited every now 
and then. And those are the kinds of things on a bipartisan 
basis that would ensure that every member of the American 
public gets an answer that is responsive and that matches 
marketplace reality.
    Mr. Lance. Mr. O'Rielly?
    Mr. O'Rielly. I would agree with my colleague's comments. I 
would also say that in the legislation that this committee has 
addressed, it would require us to set deadlines on a number of 
things in the petitions. We can move that without--we can do 
that ourselves. It would be helpful to have legislation. I am 
supportive of that, but we can do that notwithstanding and I 
would like to see us do so.
    Mr. Lance. Thank you very much. I yield back the balance of 
my time and I recognize Congresswoman DeGette.
    Ms. DeGette. Thank you, Mr. Chairman. I just want to 
clarify a couple of things that we have been talking about this 
morning. The first one is this set-top box proposal and the 
alternatives that have been proposed. One of my big concerns as 
the co-chair of the Privacy Caucus with Mr. Barton is 
protecting consumer privacy.
    And so Chairman Wheeler, I just wanted to ask you 
irrespective of what path the set-top box final rules goes, 
does the FCC plan to retain enforcement authority over any 
violations of Section 631 and 338?
    Mr. Wheeler. Yes, ma'am.
    Ms. DeGette. Thanks. The second area I wanted to talk about 
very briefly is this lingering discussion of waste, fraud, and 
abuse in Lifeline. Always I hear--I have been in Congress now 
for a while I always hear people criticize waste, fraud, and 
abuse. This is certainly something we can agree on on a 
bipartisan basis. Nobody wants to see waste, fraud, and abuse. 
We are opposed on a bipartisan basis to waste, fraud, and 
abuse. I think it is important to get that on the record and so 
when I hear people like Commissioner Pai talk about waste, 
fraud, and abuse in the system, I take that seriously, and I 
think that we should all talk about this investigation and 
these findings and is it true and what are we going to do about 
it?
    And so Chairman Wheeler, I thought I might give you the 
opportunity to talk about some of the actions that the FCC has 
taken either during or before your tenure to combat fraud, 
waste, and abuse, and is this an issue that you take seriously 
moving forward?
    Mr. Wheeler. Thank you very much, Congresswoman, and yes, 
it is hard to understate the seriousness of something like this 
for two reasons. One, as has been pointed out, this is the 
people's money.
    Ms. DeGette. Right.
    Mr. Wheeler. But two, if waste, fraud, and abuse is being 
used to compromise the ability of individuals who deserve to 
have connectivity and to threaten the program ,then it is 
worse, even worse.
    We are existing in an environment where technology is 
moving ahead and people are falling behind. We must be 
vigilant. What we have been doing, as I said before, is playing 
Whac-a-Mole on this, that there was a design for the program 
that said we will let the fox guard the henhouse, that we are 
going to count on self-certification from those who get the 
money to say yes, this is a real person, yes, this is a good 
address, et cetera. That is the way the program was designed at 
the outset and we spent the last 8 years playing Whac-a-Mole 
trying to beat those down as new attacks on that pop up.
    Ms. DeGette. So that is great. I am glad you recognize, as 
I do that this is a problem. Can you give me some concrete 
examples about what the Commission is doing and also maybe 
respond a little bit to what Commissioner Pai said in about 30 
seconds?
    Mr. Wheeler. As Commissioner Pai said we just had a $51 
million judgment against a company called Total Call Mobile 
which was engaged in virulent fraud. We have actually shut them 
down so that they are not getting any funds going forward now.
    Because this is a law enforcement issue, I can't give you 
specifics other than to say that both the Enforcement Bureau 
using civil means and the Inspector General of the Commission 
working with the Justice Department and the FBI for criminal 
prosecution are moving forward and have identified over a dozen 
specific instances where you need to be going after.
    Ms. DeGette. Thanks, and if you could please supplement 
your testimony today to tell me what processes the Commission 
is putting into place within its network to prevent fraud, 
waste, and abuse?
    And Commissioner Rosenworcel, since it is your birthday, I 
just have to ask you one question. How do you think that the 
expansion of broadband to the Lifeline Program will help close 
the homework gap that you talked about in your testimony?
    Ms. Rosenworcel. Thank you. If you don't have access to 
modern communications today, you don't have a fair shot at 
prosperity in the 21st century. And that is especially true for 
school children. Pencil and paper doesn't cut it any more. So 
what we can do with Lifeline could make a big difference for 
students by giving them the connectivity they need to simply do 
their homework.
    Ms. DeGette. Thank you. Thank you very much, Mr. Chairman.
    Mr. Lance. Thank you very much. The chair recognizes Mr. 
Scalise.
    Mr. Scalise. Thank you, Mr. Chairman. I first wish you 
Happy Birthday, Commissioner Rosenworcel. I promise not to ruin 
it by singing to you. I couldn't imagine where else you would 
rather be than on your birthday than here.
     I really appreciate all the Commissioners coming to talk 
to us about a number of things that we are interested in that I 
think people across the country are interested in in relation 
to the decisions that the FCC is considering in making.
    I do want to applaud Congressman Shimkus' comment that it 
is long past time to consider rewrite of the '96 
Telecommunications Act. I have been talking about this for a 
long time. I would be remiss if I didn't bring up the fact that 
this was the mobile telecommunications device, the last time 
our laws were written. And today, when we do so many new and 
innovative things on this device, we are still governed by the 
laws that were available when this device was the main smart 
phone. And we do need to change those laws.
    As we consider some of those changes, I have also been 
critical of the '92 Cable Act and the need to update that. I 
think at the time they were really good laws that some of the 
people that wrote those laws are here in this room and they 
were very valid and modern when they were written, but it is 
our responsibility to go and identify those areas where we need 
to modernize.
    And I have also been very careful to point out that as we 
are modernizing those laws, we need to respect copyright law. 
The basic idea that somebody that created content ought to be 
compensated for the negotiations that occur and how that 
content is best distributed. And that brings me to the latest 
proposal that the FCC is considering dealing with set-top 
boxes.
    And I would be remiss if I didn't bring more modern 
technology, and so when you look at this set-top box which is 
actually being used today in the marketplace, I would hope that 
we don't look at it under the prism that we have got to figure 
out a way to make this device the main source of content 
distribution for consumers and again, I will go to the more 
modern device that I use. I can literally stream and am 
streaming ESPN right here on this app on my smart phone. I will 
be in person when LSU plays Wisconsin and the Speaker and I are 
going to have a difference of opinion when the Tigers beat the 
Badgers in Lambeau Field, but if you are not there, you could 
actually watch the game live on this device. And so it is 
incredible how much innovation has occurred in the marketplace. 
And a lot of it is through the app-based world. And I would 
hope that we don't force the one size fits all as we are 
looking at the different approaches.
    I do want to ask you, Chairman Wheeler, the Motion Picture 
Association of America had submitted a comment, as many have, 
on the set-top box. In their reply, they had sent you a comment 
and said, ``Our ask is straight forward. That in seeking to 
ensure set-top box competition, the FCC not give third parties 
our content without our permission and without compensation, 
not put our content at risk of theft, and not threaten the 
economics underpinning the creation of programming that is 
fostering a second Golden Age of Television.''
    So what I want to ask you is have you started looking 
closer maybe at different alternatives including app-based 
technologies as opposed to just looking at different ways to 
distribute through this archaic device, as the industry is 
looking at different innovations that are even more convenient 
for consumers like this.
    If you could share that with me and I would like to ask 
some of the other Commissioners as well.
    Mr. Wheeler. Thank you, Congressman. Yes, the answer to 
your question is yes. I loved your show and tell here.
    Mr. Scalise. All of this will be in a museum. This is 
actually a lot more valuable than when I bought it a few years 
ago.
    Mr. Wheeler. And it is even beyond this. I mean I just read 
that Pokemon is back on an app, of all things. So that is how 
rampant the changes are. But let me be specific to your 
question.
    The set-top boxes are not going away. I learned an 
interesting thing the other day in Business Week, an article 
about Comcast, that they are delivering 40,000 set-top boxes a 
day. And this of their X1, their latest whiz-bang. So set-top 
boxes are not going away.
    Mr. Scalise. And I have seen some great innovations----
    Mr. Wheeler. And these apps are important.
    Mr. Scalise. And these companies compete against each 
other, and I don't want us to be interfering with their 
competition.
    Mr. Wheeler. And apps are very important, and one of the 
concerns that we are trying to learn in the proposal that NCTA 
put forward, for instance, is that there are those who are 
suggesting that the way in which they are structuring their 
apps' proposal actually requires a new gateway for every 
television. That is a second box. This committee has told us a 
lot about how much you don't like second boxes.
    So we are trying to work our way through this. I am 
encouraged that we will be able to get through it. I have lived 
through all of those evolutions up there, and I know that we 
will--none of them were easy, and we will continue to work 
through it, but we are going to be in serious discussions as to 
how do we make sure that we have a solution that follows the 
statute and offers consumers choice both in hardware and 
software.
    Mr. Scalise. And I know I am out of time. I wanted to ask 
Commissioner Pai about privacy. I will submit that for the 
record, just on expectation of privacy, and you have been 
pretty vocal about that in the past.
    Mr. Pai. Well, thanks, Congressman. I personally embrace 
the twin goals that the White House set forth in the 2012 
Privacy Report that consumers should have a uniform expectation 
of privacy and that there should be a level playing field with 
respect to all providers in the Internet ecosystem. And those 
are the twin goals that I will carry forward in this 
proceeding.
    Unfortunately, the FCC's proposal right now singles out 
Internet service providers for disparate regulation despite the 
fact that they are nascent players in the online advertising 
market and that is part of the reason why we have seen, for 
example, around the administration's first FTC chair, Jon 
Leibowitz, suggests that this type of disparate regulation 
would not be good for consumers in the long run.
    Mr. Scalise. Yes, different standards. I appreciate it, Mr. 
Chairman. I yield back.
    Mr. Lance. Thank you very much. The Chair recognizes 
Congresswoman Matsui.
    Ms. Matsui. Thank you, Mr. Chairman. I want to thank the 
Commission for appearing before us again. It is great to see 
you.
    Mr. Chairman, I know you all, all of you, appreciate the 
need for greater access to spectrum to fuel our wireless 
economy. The FCC has done a lot of important work in this area. 
The incentive auction, as you say, is under way and I was 
encouraged to see the FCC identify an ambitious clearing 
target, so congratulations.
    There is ongoing work to identify Government spectrum for 
commercial use. I appreciate the FCC started a proceeding on 
the 1675 to 1680 megahertz which Representative Guthrie and I 
wrote to you about along with many of our colleagues. I look 
forward to continuing to work with you to bring that spectrum 
to auction.
    And later this week, the Commission is voting on the 
spectrum frontiers proposal to open up high-frequency bands for 
5G, the next generation of wireless broadband. This is all 
progress and there is more to do if we want the United States 
to continue to lead the global wireless economy.
    Chairman Wheeler, as I said, this is all progress. Can you 
elaborate on our broader strategy to ensure that the United 
States will continue to lead the world in 5G and I have 
additional questions for you, too.
    Mr. Wheeler. Thank you, Congresswoman. I will be really 
brief then. What we hopefully are going to do on Thursday is to 
become the first nation in the world to identify high-band 
spectrum for 5G. And that, coupled with what we have already 
done in low-band and what we have already done in mid-band, 
puts this country, its manufacturers, its entrepreneurs and 
innovators, it gives them a home-field advantage. And that, I 
truly believe, and I was saying to one of my colleagues 
yesterday, the decision we make Thursday could actually be the 
most important decision this Commission makes this year.
    Ms. Matsui. That is great. Chairman Wheeler, as you know, I 
am very interested in how we improve spectrum efficiency and 
spur innovation so that we can maximize the benefits of this 
finite resource. We often talked about this in the context of 
mobile phones and wireless carriers. But innovation is 
important for all spectrum uses including over-the-air 
broadcasting. I know that a coalition including public 
broadcasters and consumer electronics manufacturers have 
submitted a proposal for next-generation TV standard which 
could allow broadcasters to innovate within their existing 
spectrum. I understand the FCC has sought comment on that 
proposal.
    Mr. Chairman, what are the next steps as the FCC considers 
this proposal, and will you take further action this fall?
    Mr. Wheeler. Thank you, Congresswoman. I don't know exactly 
where we are on being able to commit to it this fall kind of 
agenda. The record has just closed on this. We are in the 
process of working our way through it. Then, of course, we will 
be meeting serially and ad nauseam with all of the players to 
try and collect the basic information to be able to have an 
informed decision going forward.
    Ms. Matsui. Thank you very much. And let me just say that I 
really want to comment on Lifeline. I am very passionate about 
it and I know other Commissioners are passionate about it. I 
just really feel that this is so important for not only 
connectivity, but the fact of the matter is that there are so 
many people in our country who are unserved and under served in 
both rural and urban areas.
    In order to bring us to a point where economically we could 
really be competitive, we need to make sure that everyone 
participates. So I encourage all of you to proceed further 
because I think this is an area where we really need to ensure 
that we make a lot of progress. And I do thank you for 
everything you are doing and I yield back. Thank you.
    Mr. Lance. All right. Thank you. We will be adjourning. We 
have a vote and we will be back. The Chair has announced that 
we are in adjournment. Thank you.
    [Recess.]
    Mr. Lance. The committee will reconvene, ladies and 
gentlemen. The Chair recognizes Mr. Kinzinger of Illinois.
    Mr. Kinzinger. Thank you, Mr. Chairman. Thank you all for 
being here and bearing with us on the votes and schedule.
    Mr. Chairman, I have a very rural district that is served 
by a number of companies that specializes in providing services 
such as power distribution into areas with unique 
infrastructure needs. In my district, there is about 50,000 
people served by rural electrical co-ops who provide safe and 
reliable services on a continuous basis. The issue of those co-
ops have brought forward to your Commission and into my office 
is the timely distribution of information when you have 
service-related outages, interruptions, maintenance issues, 
things like that, and how that could--anything that basically 
could negatively affect the consumer.
    As I am sure you are aware, I am talking about the TCPA 
regulations that were first introduced two decades ago before 
the advent of majority of the technology we use today was 
invented.
    Are you aware of the petition filed by Edison Electric 
Institute and the AGA requesting expedited action by your 
agency by a utility-specific exemption from parts of TCPA 
regulations?
    Mr. Wheeler. Yes, sir.
    Mr. Kinzinger. Have you met with representatives of the 
industry to hear their concerns, who are my constituents, their 
views on the importance of service-related text messages, phone 
calls, that they want to receive regarding outages, 
maintenances, and other issues?
    Mr. Wheeler. I haven't met with them directly, sir. My 
staff has.
    Mr. Kinzinger. OK. Do you have any plans for responding to 
the petition or a time frame?
    Mr. Wheeler. I put a proposal on the floor in December.
    Mr. Kinzinger. OK. Do you have any idea on timing beyond 
the staff?
    Mr. Wheeler. It is up to them.
    Mr. Kinzinger. Do you have more to add?
    Mr. Wheeler. Commissioner Rosenworcel is now telling me it 
was adopted.
    Mr. Kinzinger. OK, great. Commissioner O'Rielly, could the 
FCC have set up an enforcement regime modeled after the FTC's 
enforcement regime? And is there any way that the two agencies 
could have worked out an enforcement regime that took better 
advantage of the FTC's expertise?
    Mr. O'Rielly. I think you are getting into the issue of 
privacy. I think there was an opportunity and still is an 
opportunity to work in cooperation with the FTC. I think the 
path that we are headed down though would not allow that. 
Hopefully, we will change course. I am not too optimistic at 
the current time.
    Mr. Kinzinger. Can you talk just a little about I guess 
about the benefits of their expertise and----
    Mr. O'Rielly. So the FTC has been working on privacy 15-
plus years. I worked on it when I was a staff member here and 
oversaw. They built an extensive backhaul of material. They 
have hundreds of people working on the issue.
    Compare that to the FCC, we have maybe 15 people working on 
it. And our experience is this narrow in terms of what the 
scope is and also how long we have been working on it. So I 
would argue that we should adapt and adopt a lot of the 
approach from the FTC. They have a different statute that 
governs their operations than us. It is an enforcement model 
structure, but they have been able to get to a place that 
provides, I believe, and I think most people that operate in 
the space, privacy protections for consumers and ensures that 
the privacy is treated fairly without jeopardizing the Internet 
and the Internet experience.
    Mr. Kinzinger. It would seem to make sense to learn from 
what other agencies have done as we implement it. Let me ask 
you another question, different subject. This committee spent a 
great of time considering infrastructure issues. As we move 
towards 5G, infrastructure becomes both more important and more 
complicated with networks running on many, many small cells 
instead of the more traditional macro towers.
    Can you tell us what the Commission is doing to enable the 
infrastructure deployment, and particularly, can you give us a 
status update on this proceeding regarding distributed antenna 
systems?
    Mr. O'Rielly. Sure, the Chairman may be better to answer 
your last part as to the status. I only have so much say in the 
activities of the Bureau, but I have been pushing the agency to 
move a number of items that would allow greater infrastructure 
buildout. There is going to be more need for buildout. People 
are talking of it being ten times the number in terms of macro 
cells compared to the small cells, so to try and build that 
infrastructure, it is going to be smaller, but you are going to 
need more of them. You are going to need to get backhaul to 
them. You are going to need to get power to those sites and 
that is a very difficult universe.
    We have a number of localities who believe in federalism, 
but we have a number of localities that have been problematic 
in terms of allowing infrastructure builds. We have been trying 
to build best case scenarios, but we also have worst case 
scenarios and we are trying to use the authority that we have 
that Congress has granted us to push those localities to allow 
greater infrastructure because in the same breath that we will 
hear from a mayor that my citizens want broadband. At the same 
time they will say but we don't want you to build. It is a 
push-pull. And so we are obligated to try and make available 
Internet access and broadband.
    Mr. Kinzinger. Sounds like politics. With that I will 
respect the time and yield back. Thank you.
    Mr. Lance. Thank you very much. The Chair recognizes Mr. 
McNerney of California.
    Mr. McNerney. I thank the chairman. I want to thank the 
Commission for your hard work. I mean this is interesting, but 
it is complicated and sometimes controversial, so I appreciate 
your work on this.
    I am glad to hear that the chairman of the subcommittee and 
the ranking member are interested in the wireless microphone 
licensing issue and I offer to work with anyone on that.
    Chairman Wheeler, regarding set-top boxes, one of the goals 
outlined in an FCC fact sheet about your initial proposal was 
better prices for customers. This goal is especially important 
for customers in my district which has high unemployment and 
high poverty rates. Are better prices for consumers still a 
priority considering the apps-based approach?
    Mr. Wheeler. Thank you very much, Congressman. You know, 
set-top box forced rentals because you really have no choice, 
have been going up at about 5 percent a year every year like 
clockwork. And so yes, it is a very serious concern. And one of 
the reasons why I believe the Congress mandated that we have a 
competitive--we assure that there is a competitive set-top box, 
or navigation device which is what the language uses, was for 
that very reason because competition has the effect of having 
an impact on lowering prices.
    Mr. McNerney. It should any way.
    Mr. Wheeler. It should.
    Mr. McNerney. Commissioner Clyburn, do you believe that the 
adoption of the apps-based approach could in any way 
disadvantage low-income consumers?
    Ms. Clyburn. I believe that the direction in which we are 
headed and the proposed regime and the outcome that all of that 
envisions should bring overall net benefits to all in terms of 
a more openness, more competition, adherence to Section 629.
    And again, we are keeping in mind all of the privacy, 
security, and other protocols that is without question as a 
baseline, but what we want is more options. What we want is 
more affordability. What we want is more competition and more 
people having access and I think that is the direction in which 
we are headed.
    Mr. McNerney. Well, I hate to ask a procedural question, 
but going to apps-based approach, is there going to be another 
new Notice of Proposed Rulemaking?
    Mr. Wheeler. I think the notice that we put out is broad 
enough at this point in time to be able to justify it because 
we asked for what are other approaches to the whole.
    And certainly there is a record developing on this, sir, so 
you can't say that there wasn't a record.
    Mr. McNerney. Moving on to Lifeline, I would like to thank 
Mr. Pai for acknowledging the difference between potential 
widespread fraud and widespread providers. I encourage you to 
keep that distinction in mind as we move forward.
    Mr. Wheeler, the Lifeline Program is a critical resource in 
my district. More than 56,000 households participate. How would 
capping the budget for Lifeline Program impact the Lifeline 
recipients?
    Mr. Wheeler. Thank you, Congressman. What it does is it 
disincentizes the offering of service because if you look at--
you need to be able to say to someone who is going to provide 
service you can count on $9.25 a month because you have got to 
amortize equipment, you have to worry about all of the expenses 
associated with this and you can count on that kind of a cash 
flow.
    If you say well, it is $9.25 today, but tomorrow, could be 
$6, then you create an economic disincentive to be offering the 
service. So what we tried to put in place was a budget that 
said OK, when you get to 90 percent of this number, then it is 
time for the Commission to come back and revisit what is going 
on. How do you put a mechanism in there? We don't want things 
just go whacko here, but how do you put a mechanism in first 
control while creating incentive at the same time?
    Mr. McNerney. Moving on to the 911 technology issue, how do 
you see the FCC gaining the authority that you feel you need to 
move forward with adapting the new technology?
    Mr. Wheeler. I think this committee is in charge of that 
question, sir, with all due respect.
    Mr. McNerney. OK. Good. I have 18 seconds, so Mr. Wheeler, 
I am interested in the privacy issue as well. If the Commission 
allows paper privacy practice in moving forward with this 
rulemaking, how will it ensure that the costs of incent of 
Internet service is not inflated so that consumers are forced 
to accept the discount in order to use that to keep their 
information from being----
    Mr. Wheeler. Thank you, Congressman. Excellent question. So 
I think that everybody agrees that privacy isn't a luxury. You 
can kind of start there. And as your question indicates, this 
is a very complex issue, and so we specifically called it out 
in our rulemaking and said can we please have everybody's 
thoughts on what the best way is to do it. I haven't got an 
answer for you yet, but we are searching for it.
    Mr. McNerney. Thank you, Mr. Chairman.
    Mr. Lance. Thank you very much. The Chair recognizes Mr. 
Bilirakis of Florida.
    Mr. Bilirakis. Thank you, Mr. Chairman. I appreciate it 
very much and I want to thank the panel for their testimony 
today. Welcome.
    Like many of my colleagues on both sides of the aisle, I 
think it is imperative for you to listen to the chorus of 
concerns for your set-top box NPRM and embrace the apps-based 
approach that won't shackle the industry to a hardware-
dependent model moving forward.
    My constituents and I are also concerned about the 
likelihood of confusion that will grow exponentially with your 
new ISP privacy proposals under our Title II. It does not make 
a lot of sense to me to regulate Internet service providers 
under one new set of untested rules and allow everyone else to 
continue under the successful FTC privacy standard.
    My constituents want to be sure that their important 
information is security protected online at all times. The best 
way to ensure this is to consistently apply uniform standards 
to all of their information so they don't have to worry that 
their information can be treated differently depending on who 
they are providing it to.
    This recent trend towards differentiating between types of 
companies that can potentially compete against one another in 
the free market is a troubling regulatory development in my 
opinion. I want to follow up on a matter that we have discussed 
in the past few meetings regarding the FCC field offices, Mr. 
Chairman.
    I along with many of my colleagues from both sides of the 
aisle were concerned about the impact of losing the fields' 
boot on the ground presence, especially with regard to 
resolving interference to public safety communications. You 
have consistently stated the FCC will continue to meet its 
speed of disposal metric for public safety interference. The 
FCC will respond to 99 percent within one day and that response 
is typically an email to the complaint, so I don't really 
consider that a response.
    However, you have since disclosed that it takes 28 days, I 
understand, on average to resolve the interference to end it. 
In one sentence or less, Chairman Wheeler, has that data point 
changed since you closed the field offices?
    Mr. Wheeler. I can't answer that with specificity, sir, but 
the need to get out and deal with what are the realities in 
each interference situation, for instance, one of the major 
interferers is ballast in neon bulbs. So I remember a situation 
where our inspectors go and knock on a beauty shop door and 
they have no idea what is going on. How do you find it in here? 
It becomes an ongoing extensive process to get through it, but 
I can't--I'll try to find what the answer is to your question, 
but I don't know it off the top of my head.
    Mr. Bilirakis. Please get that to us as soon as possible. 
Again, members from both sides of the aisle are interested in 
this, our constituents come first.
    So moving on, Commissioner Pai and O'Rielly, a European 
commentary recently asserted that rather than move towards the 
type of harmonization our privacy rules achieved in Europe, the 
FCC's proposal and I quote ``seems to be instead moving towards 
fragmentation and more prescriptive rules for Internet service 
providers versus other Internet companies including some of the 
largest users of personal data.''
    She indicated that ``from European eyes, it appears strange 
to see the U.S. normally a leader on digital issues taking this 
apparently retrograde step.''
    Now that the privacy shield agreement was formally approved 
earlier today, what does it mean for Europe to have harmonized 
privacy standards and transatlantic reliance on the FTC model 
whereas domestically the FCC rules could lead to fragmentation 
of our privacy regime? Whoever wants to take it first.
    Mr. Pai. Congressman, thanks for the question. Those 
concerns are shared domestically included by myself and I think 
part of the reason why the privacy shield was notable was that 
it is backed up by Federal Trade Commission enforcement and the 
U.S. Commerce Department represented to the European Union that 
FTC enforcement was an adequate way to ensure that at least 
domestically those privacy protections would be upheld.
    Unfortunately, I think what the FCC has done according to 
the FTC's own staff comments it is carved out for special and 
more onerous regulation Internet service providers and so as 
you pointed out in your question we now have a two-track 
regime. Ironically, the new competitors in the online 
advertising market apparently will face more onerous regulation 
than everybody else who will face FTC regulation. And I think 
that is something that ultimately will redound to consumers' 
detriment.
    Mr. Bilirakis. Commissioner O'Rielly?
    Mr. O'Rielly. I would agree with my colleague's comment. I 
hate to admit it, but it looks like Europe is taking a more 
thoughtful approach than the United States on this issue.
    Mr. Bilirakis. Thank you. Commissioner Pai--oh, I know 
there is not much--can I have 30 seconds?
    Mr. Lance. Certainly.
    Mr. Bilirakis. Thank you very much, Mr. Chairman, I 
appreciate it.
    Commissioner Pai, what is so unique about the Lifeline 
aspect of the Universal Service Program where a basic fiscal 
responsibility measure like a firm budget cap is still not 
applied to a program with such a storied history by some, not 
all, of the participants in the Lifeline Program?
    Mr. Pai. Thanks for the question, Congressman. I think the 
Lifeline Program like all of the Universal Service Programs are 
focused on one things, supplying digital opportunities to 
Americans who otherwise might not have them. And that is part 
of the reason why I think it is so important for the FCC to be 
a wise fiscal steward of all of the dollars that taxpayers put 
into that fund.
    Part of the reason why I supported a budget is that it was 
the only one of the four Universal Service Fund programs that 
wasn't budgeted. I think it tends to promote more wise and 
careful spending to make sure that those dollars go to the 
people in need, and I think that is something that all of us 
can agree on.
    Mr. Bilirakis. Definitely. Thank you very much. I 
appreciate it. I yield back, Mr. Chairman.
    Mr. Lance. Thank you very much. The Chair recognizes Mr. 
Yarmouth of Kentucky.
    Mr. Yarmuth. Thank you very much, Mr. Chairman, and I very 
much appreciate this hearing. I am not sure I could have gone 
another 2 months without an FCC fix.
    [Laughter]
    And I would also like to agree with Mr. Shimkus and Mr. 
Scalise about, I think, the desirability of rewriting the act, 
although I might suggest that it is going to be a lot harder 
given the pace of change in this field, it is going to be a lot 
harder than it was in '96 and certainly a lot harder than '34.
    I know you have all heard me say before, we are talking 
about the pace of change that innovation is requiring companies 
to make investments to support user demand. Just last weekend 
in my district it was reported that AT&T has finally built out 
their fiber footprint and it is great. It is great for my 
constituents and I know it has been said many times in this 
hearing already how important this is for the country and I 
commend the Commission on its work in expanding broadband so 
everyone can participate in the economy.
    That being said, the way we receive content from 
broadcasters, radio, and newspapers is changing rapidly and I 
remember when I was growing up we had two television stations 
in Louisville, two radio stations that reported news, and two 
newspapers that were owned by the same company that owned one 
of the television stations and one of the radio stations, so I 
really understood the--I would have understood the need for 
cross ownership regulation at that point. But now in today's 
world and I come from a media background. I owned a newspaper. 
My son now owns a newspaper, which he is also doing 
broadcasting. Every broadcaster is doing print media. They are 
not doing it in newsprint. But they are doing it online.
    Pew Research said 62 percent of Americans now get their 
news from social media. I saw a Nielsen report a couple of 
weeks ago. Among Millennials, only 24 percent watched any 
television last year, and I actually validated that with a 
group. I was with 30 Yale students. I said how many of you 
watch television this year. Everybody raised their hand. I said 
how many of you watched the television set? Two raised their 
hand.
    So as I think of all this, I am wondering and I read the 
fact sheet, the update on the Commission's plans on cross 
ownership rules. And I know Mr. O'Rielly, you have been 
outspoken about your opinion that we don't need it, we don't 
need them. I noticed in that update it says that the rule will 
reinforce the idea that is necessary in the public interest. So 
I am kind of curious, in the 2 minutes and 20 seconds I have 
left, let you take a shot first for a minute as to why you 
don't think they are necessary anymore, and then I would like 
to have somebody who believes, can explain to me where the 
public interest benefits from.
    Mr. O'Rielly. So I haven't said to eliminate. There are 
five rules, with different parts to each one. So I haven't said 
to eliminate them in total. There are definitely paths that I 
want to see us recognize that we should modernize. You 
highlight the experience of newspapers. The newspaper industry 
is in a very troubled state, but we are going to maintain--you 
will see soon enough our activity on our media ownership rules. 
I think you are going to find it is even stronger than what is 
on the fact sheet. It is actually in a more prescriptive and 
additional route requirements. So I think that is in the wrong 
direction.
    But based on where the media is today, where Millennials 
are taking their information, where consumers are taking their 
information, where news is being provided, so one of the 
arguments that I made and this is a point in my testimony is 
that we can't do anything on television because we have the 
incentive auction going, but that has no impact on the 
newspaper/radio side, and we make the point that those markets 
are not the same and they are not competing against each other 
in the item, so it is hard to me to fathom that we can't at 
least do some reform over here, but we are not planning to do 
so. So we are going to lock in the rules for another 4 years or 
longer, and it hasn't changed since 2004.
    I think that is very problematic given what has changed in 
that time frame for users' experience, for consumers' 
experience, and for producers' experience. And I just think 
that we have to thoughtfully change our rules, modernize them 
while still respecting localism, competition, diversity, and 
the public interest. We can do both. We are not doing it in 
this item.
    Mr. Yarmuth. Mr. Chairman, do you want to take a shot at 
that or any of the others?
    Mr. Wheeler. So thank you, Mr. Yarmuth. You know, I think 
we have to put this in perspective. This committee was very 
explicit and the court, Third Circuit, very explicit saying 
hey, it has been 8 years since you guys have made any kind of 
decision on this. It wasn't because we weren't trying. It was 
because there wasn't a majority that would coalesce around an 
idea.
    So step one is, is there a majority that will coalesce 
around an idea? Step two is, all of the Commissioners have not 
yet expressed themselves in this proceeding. And are there ways 
that those two groups can work together on this, and I think 
that is yet to be seen. But the point of the matter is that the 
reason we took this 2-year step is because for 8 years nobody 
has ever been able to figure out where is something we can all 
agree on, and that is still an item that is very much under 
discussion.
    Mr. O'Rielly. We are in the exact same spot as we were 
before. Nothing is going to change, yet the marketplace is 
changing before our very eyes.
    Mr. Wheeler. That is the key thing. The market is changing, 
even Pokemon.
    Mr. Lance. Thank you very much. The Chair recognizes Mr. 
Johnson of Ohio.
    Mr. Johnson. Thank you, Mr. Chairman, and I, too, thank the 
panel for being with us today.
    Chairman Wheeler, the FCC recently levied a $34.5 million 
fine against a Chinese company for selling equipment that is 
illegal in the United States, jammers. Did that Chinese company 
respond to the FCC in the course of the penalty proceeding to 
defend itself?
    Mr. Wheeler. I can't answer that with specificity.
    Mr. Johnson. Can you get back to me on that?
    Mr. Wheeler. Yes, sir.
    Mr. Johnson. OK, do you expect that the Treasury will ever 
see any of the $34.5 million fine that the FCC assessed?
    Mr. Wheeler. I quit hypothesizing some time ago.
    Mr. Johnson. Let us take a wild guess, because I don't 
think we will. And that being the case, does it not give you 
concern about the enforcement mechanisms proposed in your set-
top box proposal that will likely result in offshore companies 
manufacturing and selling set-top boxes in the United States? 
Are you going to have repeats of this kind of thing?
    Mr. Wheeler. I understand your point. So one of the things 
that we are--this is on the table as we work through with the 
industry, what is the right kind of approach.
    Mr. Johnson. Do you have concerns about collecting the 
money and enforcing, though, with your proposal as it is? I 
mean, if we can't enforce it on China--and you have no 
certainty that we can--how does your proposal stack up?
    Mr. Wheeler. So the way the rulemaking works is----
    Mr. Johnson. I know how the rulemaking works. Do you have 
concerns about the enforcement mechanism? That is a very narrow 
question.
    Mr. Wheeler. And we are trying to resolve those concerns as 
we go through this process.
    Mr. Johnson. So you do have concerns?
    Mr. Wheeler. As we go through this process.
    Mr. Johnson. OK, great.
    Mr. Wheeler. It has been raised in----
    Mr. Johnson. One of the things that we focused on is the 
uncertainty that results from poor processes. On May 4th of 
this year, an opinion and order was released by the Enforcement 
Bureau in a complaint proceeding. The complaint was filed with 
the FCC on May 13, 2004. It took the FCC almost 12 years to 
resolve the complaint. Were you aware of this?
    Mr. Wheeler. Which proceeding are you speaking of, sir?
    Mr. Johnson. I can get you that information. I don't have 
which specific proceeding, but are you aware of that?
    Mr. Wheeler. I am not aware of that, sir.
    Mr. Johnson. OK, I will follow up with questions for the 
record.
    Mr. Wheeler. Great. Thank you.
    Mr. Johnson. Also, Chairman Wheeler, you recently submitted 
the FCC's management report on Inspector General and other 
audit reports to the committee. The report discloses that in 
March of last year the IG issued a report on the FCC's 
management of civil monetary penalties. I think the IG 
testified back in 2014 that he was going to do this and that 
the report found that the FCC had not collected all the 
penalties and fines that it could have.
    You reported to this committee that of the IG's 13 
recommendations, ten remain open. Is that correct? Do I have 
that number right?
    Mr. Wheeler. I don't know by the count, sir. I know that we 
submitted the report to you.
    Mr. Johnson. OK, but you reported to us that of the IG's 13 
recommendations, 10 remain open. Do you know how many of the 
recommendations still remain open?
    Mr. Wheeler. No, sir.
    Mr. Johnson. You do not?
    Mr. Wheeler. No, sir.
    Mr. Johnson. Do you have any idea when the remaining 
recommendations will be closed out?
    Mr. Wheeler. Working with the IG.
    Mr. Johnson. Well, there is a lot you don't know today, 
isn't it? Is your memory failing, or what? You don't remember 
the report and the recommendations? I mean, you testified 
before this committee on these matters.
    Mr. Wheeler. Yes, sir.
    Mr. Johnson. Yes, sir to what? You do remember or you don't 
remember?
    Mr. Wheeler. I am giving you straight and truthful answers.
    Mr. Johnson. Well, no, you are saying you don't know. Can 
you get back to the committee on these things?
    Mr. Wheeler. Yes, sir.
    Mr. Johnson. I will turn these questions in as well. 
Commissioner O'Rielly, you blogged about the FCC's handling of 
penalties, is that correct?
    Mr. O'Rielly. That is accurate.
    Mr. Johnson. Did the Chairman's office share this report 
with you?
    Mr. O'Rielly. I am not aware of that report, no, sir.
    Mr. Johnson. You are not aware of the report.
    How can this be a commission, Mr. Wheeler, Chairman 
Wheeler, when the report is not even shared with all the 
members of the Commission? You testified earlier that the 
majority of decisions are made unanimously among the 
Commission. How can you make decisions when a critical report 
like this is not shared with all the members?
    Mr. Wheeler. No, I think it is shared with the members.
    Mr. Johnson. He just said it is not. So your opinion 
differs from theirs.
    Mr. Chairman, I yield back. We are not going to get to the 
bottom of this today. Thank you.
    Mr. Lance. Thank you very much. The Chair recognizes Mr. 
Rush of Illinois.
    Mr. Rush. I want to thank you, Mr. Chairman. It is always a 
pleasant time when the Commission comes before the subcommittee 
and I certainly want to welcome you all to this hearing.
    Commissioner Clyburn, can you explain to me how does your 
set-top box proposal requiring pay TV to provide free 
information for those the device makers when worked with the 
cable industries ask and fetch model?
    I heard from many in the cable industry that information 
flows does not exist in the network and that the FCC's set-top 
box proposal is impossible to comply with. Do you agree with 
this?
    Ms. Clyburn. So again, I am trying to wrap my head around 
your question. You are saying that there is a charge that our 
current proposal will not realize--if you could restate----
    Mr. Rush. There is no mechanism within the set-top box that 
will concur or will allow them to get the information that you 
are requesting from the manufacturers of the set-top boxes.
    Ms. Clyburn. So one of the things, if I am in sync with 
your question, one of the things that we are hoping for here is 
more competition and again, if there are either standards with 
the current set-top box ecosystem where there is a neutral 
agree-upon standard by a standard setting body, then I believe 
if I am answering your question, I am struggling a little bit, 
so forgive me if I am not understanding. A standard setting 
body would set the protocols that will enable the manufacturers 
to be in sync with what the ecosystem or what the protocols are 
in place. So if I am not reaching----
    Mr. Rush. I understand that the cable industry is saying 
that the information that you are requesting that it does not 
exist in their network and that your proposal that you have 
before--that you are considering is impossible because there is 
no way for them to gather the information.
    Ms. Clyburn. OK, so one of the things that we are 
discussing in this particular item is right now 99 percent of 
individuals rent their--get their set-top box, rent their set-
top box from the particular provider whether it is a cable or a 
satellite provider.
    What we are putting forth is whether or not this should be 
a more competitive regime, a more neutral, possibly a more 
neutral regime which a lot of people, especially those who are 
independent programmers are saying would be needed in order for 
more people to take part. So again, I will follow up with you. 
I am not sure I am hitting the mark, but that is my----
    Mr. Rush. I really appreciate your answer. Chairman 
Wheeler, how did you come to the conclusion, or the Commission 
come to the conclusion, that the FCC does not have a basis for 
instituting race- and gender-based standard preferences? 
Specifically, I am interested in what information study was 
emphasized and was collected to reach this conclusion.
    Mr. Wheeler. Thank you very much, Congressman. This is one 
of the most vexing issues that the Commission faces. The 
Supreme Court in the Adarand decision was very strict in terms 
of what it said was possible. We have been trying to work our 
way through that.
    What we did--an approach, I can't speak specifically to a 
specific item at this point in time, but an approach to that is 
to view things on a revenue basis and how is it that you can 
provide incentives to small businesses and should the 
Commission's policies follow that. And also then, how do we do 
things such as our JSA order, which has resulted in an increase 
in minority ownership of broadcast.
    Mr. Rush. Mr. Chairman, earlier there was an initial 30 
seconds granted to a member.
    Mr. Long [presiding]. OK, that is fine. We do have a vote, 
so we need to wrap it up pretty quick.
    Mr. Rush. I just want to ask a simple question. Chairman, 
what would be your response to a request for the FCC to review 
all of the research into the health risk of non-thermal 
exposure to RF radiation? I am concerned about that because as 
you know I am a cancer survivor.
    Mr. Wheeler. Thank you, Congressman. We would be very 
receptive to the input from the scientific agencies of the 
Government, but for us to say that we are a scientific agency 
is a stretch.
    Mr. Rush. OK. Thank you. I yield back.
    Mr. Long. I thank the gentleman for yielding back and I now 
recognize myself for 5 minutes of questioning.
    Chairman Wheeler, earlier Commissioner Pai was talking 
about some facts and figures and you referred to them as not--
so-called facts, I think was your term. What I am going to 
refer to is not so-called, so I would like your response. The 
FCC's recent enforcement action against Total Call Mobile is 
the latest example of pervasive and ongoing waste, fraud, and 
abuse in the Lifeline Program. As part of that proceeding, the 
FCC directed Total Call to explain why Lifeline payments should 
not be suspended. Total Call failed to do so and you issued a 
second order temporarily suspending payments until it does 
comply. That tells me that in spite of everything Total Call is 
still participating in the Lifeline Program.
    What does the FCC have to do to stop paying these 
companies? And what does the FCC have to do to kick them out of 
the program?
    Mr. Wheeler. Thank you, Congressman. We have stopped to put 
them on notice that from May forward, they are not going to get 
paid. There are due process issues in here. They have rights. 
We have to make sure that those rights are followed, but we 
have, as of middle of June, end of June, I guess, put them on 
notice that we are not going to be funding.
    Mr. Long. OK, because I know that on March 7th which 
predates the middle of May, you were talking about, they were 
clearly aware of pending enforcement action for defrauding the 
program against them. Representatives of Total Call then met 
with Commission staff that discussed Total Call's development 
of Lifeline broadband products. They stated their plans on 
rolling out in California and eventually nationwide. What is 
the FCC doing to get the ratepayers' money back?
    Mr. Wheeler. So we have, as I have said, we have told them 
we will not fund going forward and we have levied a $57 million 
action against them.
    Mr. Long. OK. Thank you. Commissioner Rosenworcel----
    Mr. Wheeler. $51 million, I am sorry. $51 million.
    Mr. Long. I thought that is what he said the first time.
    Commissioner Rosenworcel, the Chairman has testified that 
the FCC is looking at the burdens placed on providers in order 
to make it easier for carriers to participate in the Lifeline 
Program. Given the near decade of waste, fraud, and abuse 
reached over $1 billion by the Chairman's estimate and with the 
recent enforcement action demonstrating that it continues, 
wouldn't it be fair for the American consumers and businesses 
that pay the bills to make it more difficult to ensure that 
these companies are going to play by the rules? Hasn't the FCC 
learned anything?
    Ms. Rosenworcel. Listen, I appreciate the question. I think 
that Lifeline is an essential program. You don't have a fair 
shot in the 21st century if you don't have modern 
communications and frankly, I think that access to data has 
become the dial tone of the digital age. We are trying to 
update this program to reflect that and at the same time, get 
rid of waste, fraud, and abuse. And if we have bad actors, and 
companies that abuse this program, we should throw the book at 
them. We should fine them, and we should kick them out of the 
program.
    Mr. Long. OK, Thank you. Chairman Wheeler, if someone is 
using your credit card illegally and charging $100 a month, let 
us say for a year when you discover and stop and stop those 
payments, do you consider that a savings or so when you stop 
finding illegal Lifeline subscribers, are they really saving 
American consumers and businesses that pay into the fund 
anything? Is there any savings there?
    Mr. Wheeler. I know that his has been characterized that 
way. I think the fact of the matter is, Congressman, that there 
are many things to celebrate here. And that is that offenders 
were caught. Offenders were prosecuted. And the offenses were 
stopped and that there continues ongoing investigations both at 
the criminal level and at the civil level.
    Mr. Long. OK, thank you. Thank you for your testimony 
today. I am going to yield back the remainder of my time and 
give Mr. Collins the Chair and his time seeing as we have a 
vote, so hopefully we can adjourn instead of recessing and 
calling you all back.
    Mr. Wheeler. Thank you, Congressman. The patient Mr. 
Collins.
    Mr. Collins [presiding]. Thank you, and just in case, 
Chairman, could I get a note of missing a vote in case I do 
miss it.
    Mr. Wheeler. To whom it may concern?
    Mr. Collins. Yes, give me a ``to whom it may concern,'' 
just in case I miss the vote. It is a motion to adjourn, which 
is just a procedural thing. It will vote 430 to 0, so if I do, 
I do.
    And you know what, I don't have a question today on pirate 
radio.
    Mr. Wheeler. I was ready.
    Mr. Collins. I knew you were ready.
    Mr. Wheeler. I was ready. I want to tell you there are 91 
actions that have been taken through May of this year on pirate 
radio compared to 130 for all last year, and it is now taking 
up 20 percent of our field force time. We listened to you----
    Mr. Collins. I will call that a success. If nothing else, 
when you look at me you think pirate radio, and when you sit at 
that spot at the end of the dais, you just have to pick the 
issue. You can always know someone else won't ask about.
    Mr. Wheeler. But the other part about it--yes, you do have 
that certain image. But the other part about it is we weren't 
just looking at you. We are trying to listen to you and be 
responsive.
    Mr. Collins. Well, no, Mr. O'Rielly even went and busted 
somebody in Brooklyn.
    Mr. O'Rielly. I appreciate the chairman's comment.
    Mr. Collins. I wasn't even trying to bring up pirate radio. 
Actually, we all have the same issues and concerns. So let me 
just maybe end this hearing today talking about one issue that 
I think we would like some clarity on, and that is the issue of 
cell phones and the Telephone Consumer Protection Act. We 
always know that that came up when we had landlines. Now we 
have cell phones and the two in particular, one of them is I 
represent some folks that do the student debt collections on 
the Federal student loans. And I know recently the FCC did come 
out and I think took a step in clarifying that if someone is 
making a call on behalf of the Federal Government, then the 
TCPA does not apply other than the normal rules surrounding any 
call.
    And the debt collection people just wanted me to ask you, 
Chairman, kind of a yes or no, that if they are making phone 
calls collecting on student debt, they would like clarity that 
the TCPA does not apply to them.
    Mr. Wheeler. That is not what we said. We said the TCPA 
applies in that there are rules inside that. So the Congress, 
you all passed the statute saying that Federal debt collection 
should be allowed under TCPA. Then we said that there are 
several tests here under that. So for instance, is that the 
debt needs to be delinquent. OK?
    Mr. Collins. OK, yes.
    Mr. Wheeler. That there should be a limit on the number of 
calls that can be made a month.
    Mr. Collins. Is there just a reasonable test on that?
    Mr. Wheeler. No, it is three calls a month. That there 
ought to be a right to request the consumer to say stop. That 
is at the core of the TCPA, that I have got the right to say I 
don't want to harassed and if the consumer wants to say please 
don't be making these calls any more, that is at the core of 
TCPA.
    Mr. Collins. If they were delinquent. They abided by the 
three calls and the consumer had not asked to stop and they 
make a phone call, then they are fine.
    Mr. Wheeler. Yes, sir.
    Mr. Collins. That is good.
    Mr. Wheeler. There is a fourth component.
    Mr. Collins. OK.
    Mr. Wheeler. To be clear, which is a limit on the number of 
calls you make to a wrong number or to a reassigned number, but 
it is also a rational kind of a test.
    Mr. O'Rielly. I will just say I think the Chairman is 
talking about the one preceding, where it is responding to the 
act that Congress initiated in the budget piece. But we just 
recently issued and released an item on Broadnet that I think 
answers this particular issue because it gets to the point of 
whether the Federal Government is covered by TCPA and those 
collectors who are doing it on behalf of the Federal Government 
would not be covered and therefore we clarified that. So I 
think he is talking about the one item which we are going to 
clarify later this summer at some point, but I think it has 
been clarified----
    Mr. Wheeler. I didn't understand your question to be about 
robocalls or about teletownhall. I thought it was about debt 
collection.
    Mr. Collins. Debt collection on Federal student loans.
    Mr. Wheeler. Yes, which is what we just laid out.
    Mr. Collins. The four steps.
    Mr. Wheeler. Yes, sir.
    Mr. Collins. And again, just so I can be clear to my folks 
who may be watching this because they were actually saying they 
were afraid to make some phone calls because they would then be 
having a complaint, potential fines against them and they 
weren't--they were looking for some clarity, so again, if the 
loan is delinquent, they limit themselves to three phone calls. 
The consumer hasn't asked to stop and--what was the last one?
    Mr. Wheeler. And only for debt collection and wrong numbers 
and reassigned numbers.
    Mr. Collins. Then they are not subject to the TCPA.
    Mr. Wheeler. That is what we are proposing.
    Mr. Collins. The last issue is and the confusion again on 
the cell phone piece and the TCPA implied consent versus actual 
consent. So a consumer now fills out an application or 
registers on some Web site and one of the questions is can we 
have your cell phone number and they fill in the cell phone 
number. So some people are saying that is implied consent. You 
gave me your cell phone number, so I can call you. Others would 
say that no, maybe we should have an affirmative box they have 
to check, I hereby authorize you to call me.
    And I know the FCC is looking into that and that is one of 
those things that right now is a little bit of a quagmire. I 
can't believe we are nuancing that, well, you filled it in, but 
you didn't check a box.
    So really the question here is I am assuming that is an 
issue that the FCC is going to continue to work on and I just 
wondered if there is any time frame where that might be 
clarified?
    Mr. Wheeler. The threshold of the statute was to give the 
consumer control and the question then becomes what is control? 
And yes, sir, we are working on that issue.
    Mr. Collins. Very good. I am sure I did miss my vote, so if 
I could get that get-out-of-jail-free excuse from you when I 
leave.
    I want to thank you all for coming. You know, I am not sure 
how often we will get the five of you back in this room because 
we have such a limited schedule, but if by some chance we 
don't, I want to as a new member of this committee thank you 
for our opportunity, mine personally, the last year and a half, 
this Congress, to interact with you. So the hearing of the 
Subcommittee on Communications and Technology is now adjourned. 
And I would like to remind Members that they have 10 days to 
submit questions for the record.
    [Whereupon, at 1:34 p.m., the subcommittee was adjourned.]
    [Material submitted for inclusion in the record follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
    
 
    

    [Mr. Wheeler's responses have been retained in committee 
files and also are available at  http://docs.house.gov/
Committee/Calendar/ByEvent.aspx?EventID=105179.]


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]




                                 <all>
</pre></body></html>
